<html>
<title> - H.R. 1408, TO PROVIDE FOR THE SETTLEMENT OF CERTAIN CLAIMS UNDER THE ALASKA NATIVE CLAIMS SETTLEMENT ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       H.R. 1408, TO PROVIDE FOR

                       THE SETTLEMENT OF CERTAIN


                           CLAIMS UNDER THE

                         ALASKA NATIVE CLAIMS

                            SETTLEMENT ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND

                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 26, 2011

                               __________

                           Serial No. 112-36

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
66-652                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                 DAN BOREN, OK, Ranking Democrat Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 26, 2011...........................     1

Statement of Members:
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     3
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Claus, Bob, Forest Program Director, Southeast Alaska 
      Conservation Council, Craig, Alaska........................    31
        Prepared statement of....................................    33
    Graham, Owen, Executive Director, Alaska Forest Association, 
      Ketchikan, Alaska..........................................    36
        Prepared statement of....................................    37
    Mallott, Byron, Board Member, Sealaska Corporation, Juneau, 
      Alaska.....................................................    19
        Prepared statement of....................................    20
    Sherman, Harris, Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................     4
        Prepared statement of....................................     5

Additional materials supplied:
    American Fly Fishing Trade Association, Berkley Conservation 
      Institute/Pure Fishing, Campfire Club of America, 
      Federation of Fly Fishers, et al., Letter submitted for the 
      record on S. 730 and H.R. 1408.............................    48
    Daulton, Mike, Vice President of Government Relations, 
      National Audubon Society, Letter submitted for the record..    52
    Durglo, Joe, President, Intertribal Timber Council, Letter 
      submitted for the record...................................    15
    Elfin Cove, Alaska, Resolution No. 11-02 on S. 730 and H.R. 
      1408 submitted for the record..............................    53
    Katz, John W., Director of State/Federal Relations and 
      Special Counsel to the Governor, State of Alaska, Juneau, 
      Alaska, Letter submitted for the record....................    17
    List of documents retained in the Committee's official files.    47
    Organized Village of Kake, Alaska, Letters submitted for the 
      record.....................................................    54
    Stein, Alan, Statement submitted for the record..............    58
    Thoms, Andrew, Executive Director, Sitka Conservation 
      Society, Letter submitted for the record...................    62


  LEGISLATIVE HEARING ON H.R. 1408, TO PROVIDE FOR THE SETTLEMENT OF 
 CERTAIN CLAIMS UNDER THE ALASKA NATIVE CLAIMS SETTLEMENT ACT, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                         Thursday, May 26, 2011

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:01 a.m. in 
Room 1324, Longworth House Office Building, Hon. Donald Young, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Denham, Kildee, and 
Hanabusa.
    Mr. Young. The purpose of today's hearing is to hear 
testimony on H.R. 1408, a bill that I introduced, along with 
the Ranking Member, Dan Boren, and the majority of the other 
Members of this Subcommittee.

   STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALASKA

    Mr. Young. H.R. 1408, the Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act, will 
authorize Sealaska, the regional Alaska Native Corporation for 
Southeast Alaska, to finalize its 40-year-old land settlement 
due under the Alaska Native Claims Settlement Act, ANCSA, of 
1971, by selecting Native lands from within a designated pool 
of land in Southeast Alaska.
    ANCSA allocated 44 million acres and nearly $1 billion to 
Alaska's Native people, to be managed by the 12 regional 
corporations, including Sealaska, and more than 200 village 
corporations.
    First introduced in 2007, this bill has undergone an 
extensive vetting process throughout the region that has 
resulted in meaningful changes, such as providing for continued 
public access to lands, and modifying certain land selections, 
among others.
    In addition, the legislation allows Sealaska to move away 
from sensitive watersheds, to select a more balanced inventory 
of second growth and old growth, and to select most of its 
remaining ANCSA lands on the existing road system, preserving 
on balance as much as 40,000 acres of inventoried roadless old 
growth.
    Further, Southeast Alaska communities face dire economic 
realities. Some communities have unemployment nearing 50 
percent, and many more are in the double digits. It was not 
always this way, but through the mismanagement of the forest by 
the Forest Service, and the continued siege from environmental 
groups, industry has suffered, and over the last couple of 
decades, the population has seen a consistent and steep 
decline.
    By permitting Sealaska to select its remaining entitlement 
lands from outside of the withdrawal boxes, the Sealaska bill 
would help Sealaska maintain jobs in rural and predominantly 
Native communities. Sealaska provides hundreds of jobs and is 
the largest private employer in the entire region.
    After nearly 40 years since the passage of ANCSA, Sealaska 
has still not received conveyance of its full land entitlement. 
It is critical that Sealaska complete its remaining land 
entitlement under ANCSA in order to continue to meet the 
economic, social, and cultural needs of its Native 
shareholders, and the Native community throughout Alaska.
    It is very, very important that this bill does pass, and 
welcome, Mr. Kildee. It is good to have you here, and do you 
have an opening statement?
    [The prepared statement of Chairman Young follows:]

            Statement of The Honorable Don Young, Chairman, 
            Subcommittee on Indian and Alaska Native Affairs

    The purpose of today's hearing is to hear testimony on H.R. 1408, a 
bill I introduced with the Ranking Member, Dan Boren, and the majority 
of the other Members of this Subcommittee.
    H.R. 1408, the Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act will authorize Sealaska, the 
regional Alaska Native Corporation for Southeast Alaska, to finalize 
its 40-year old land settlement due under the Alaska Native Claims 
Settlement Act (ANCSA) of 1971 by selecting Native lands from within a 
designated pool of land in Southeast Alaska.
    ANCSA allocated 44 million acres and nearly $1 billion to Alaska's 
Native people, to be managed by the 12 Regional Corporations, including 
Sealaska, and more than 200 Village Corporations.
    First introduced in 2007, this bill has undergone an extensive 
vetting process throughout the region that has resulted in meaningful 
changes such as providing for continued public access to lands, and 
modifying certain land selections, among others.
    In addition, the legislation allows Sealaska to move away from 
sensitive watersheds, to select a more balanced inventory of second 
growth and old growth, and to select most of its remaining ANCSA lands 
on the existing road system, preserving on balance as much as 40,000 
acres of inventoried ``roadless old growth.''
    Further, Southeast Alaska communities face dire economic realities. 
Some communities have unemployment nearing 50% and many more are in the 
double digits. It was not always this way, but through the 
mismanagement of the forest by the Forest Service and the continued 
siege from environmental groups, industry has suffered and, over the 
last couple decades, the population has seen a consistent and steep 
decline.
    By permitting Sealaska to select its remaining entitlement lands 
from outside of the withdrawal boxes, the Sealaska bill would help 
Sealaska maintain jobs in rural and predominately Native communities. 
Sealaska provides hundreds of jobs and is the largest private employer 
in the entire region.
    After nearly 40 years since the passage of ANSCA, Sealaska has 
still not received conveyance of its full land entitlement. It is 
critical that Sealaska complete its remaining land entitlement under 
ANCSA in order to continue to meet the economic, social and cultural 
needs of its Native shareholders, and the Native community throughout 
Alaska
                                 ______
                                 

STATEMENT OF THE HONORABLE DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman, and thank you for your 
patience with me. I had another hearing, but first of all, I 
want to thank you for calling this important hearing on H.R. 
1408.
    I have been in Congress now for 35 years, and it is great 
to find someone who is a soulmate, someone who believes that 
justice is very important, and that justice delayed is justice 
denied.
    We have obligations to the Native Alaskans, and we want to 
make sure that we do everything that we can to make sure that 
we carry out the land entitlements which were promised them.
    People may disagree as to how and what, but this Congress 
has great authority, and I appreciate the fact that Mr. Young 
has been so diligent and in having this area, and I look 
forward to hearing from the witnesses.
    [The prepared statement of Mr. Kildee follows:]

 Statement of The Honorable Dale Kildee, a Representative in Congress 
                       from the State of Michigan

    I thank the Chairman for calling this important hearing on H.R. 
1408, the Southeast Alaska Native Land Entitlement Finalization and 
Jobs Protection Act.
    As we know, under the Alaska Native Claims Settlement Act (ANCSA), 
the Sealaska Corporation is entitled to up to 375,000 acres of land to 
resolve long-standing native land claims. This land is for the benefit 
and ECONOMIC development of sealaska shareholders. To date, this land 
entitlement has not been fulfilled.
    H.R. 1408 would allow Sealaska to select its remaining entitlement 
land from outside the land borders designated by ANCSA. While there are 
differing opinions about this process, everyone on this Committee is 
dedicated to ensuring that Sealaska receives the land to which they are 
entitled.
    I thank the chairman for calling this important hearing and I look 
forward to the witnesses' testimony to help further the discussion. I 
am committed to Sealaska receiving the land it is entitled to and to 
working with the Chairman to resolve any concerns to see that this 
important matter is settled.
                                 ______
                                 
    Mr. Young. I thank the gentleman, and this is going to be a 
little bit awkward, because I just made my opening statement, 
and Mr. Kildee made his opening statement. I have to be on the 
Floor for about 15 minutes, and if I can, Mr. Kildee, Mr. 
Denham is on his way, and I will run over and get back as soon 
as I can.
    I have an issue on the Floor that I have to take care of 
under the Defense Bill, and I will recess until Mr. Denham gets 
here, and then he will call us back in, and we will hear from 
our witness from the Department of Agriculture.
    I do apologize to you for this. There is only one of us in 
Alaska, and when they are going to have this clone experiment, 
I say that you don't need two of us, but sometimes I wish there 
were two of us.
    So if you would excuse me for about 15 minutes, and I would 
like to hand you the gavel. I don't know how that would go 
over.
    Mr. Kildee. You wouldn't object, but some others may.
    Mr. Young. So with that in mind, we will stand in recess 
until Mr. Denham gets here, and as soon as he gets here, we 
will start the discussion with our first witness, and I will be 
back as soon as I can.
    Mr. Kildee. Thank you, Don.
    Mr. Young. Thank you.
    [Recess.]
    Mr. Denham. [Presiding.] The Committee on Natural Resources 
will now come back to order. Thank you. We will now hear from 
our witnesses. On the first panel is Harris Sherman, the Under 
Secretary of Agriculture for Natural Resources and the 
Environment.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record. So I ask that you keep 
your oral statements to five minutes as outlined in our 
invitation letter to you under Committee Rule 4(a).
    I also want to explain how our timing lights work. When you 
begin to speak, our Clerk will start the timer and a green 
light will appear. After four minutes, the yellow light will 
appear, and at that time, you should begin wrapping things up. 
At five minutes the red light will come on, and you may 
complete your sentence, but at that time, we must stop you.

STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY, NATURAL RESOURCES 
        AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you very much. My name is Harris 
Sherman, and I am the Under Secretary at USDA for Natural 
Resources and the Environment. We are pleased to have a chance 
to comment on H.R. 1408.
    At the outset, I want to state that we fully support 
Sealaska's finalization of all of its land selections, and 
finalization of all associated issues that come from that. We 
fully recognize and appreciate, and respect the history and the 
connection of Native Alaskans to the Tongass.
    This process has gone on for too long. It needs to be 
brought to closure, and if we do, I think it will help all 
parties. We are also pleased that progress has been made by the 
parties to resolve a number of the issues that came up in prior 
legislation.
    And this progress has been seen in recent iterations of S. 
730, and I also should say that we are pleased about the 
ongoing dialogue between the parties. There remain a number of 
important issues where we need to find common solutions, 
solutions which allow Sealaska to pursue future opportunities, 
and ones which will allow other important principles to 
succeed.
    And in particular the transition away from old growth and 
roadless forests to second growth forests and restoration 
projects, and the transition to a more diversified vibrant 
economy in Southeastern Alaska, not only with timber, but it 
includes commercial fishing, and mariculture, tourism, and 
recreation, and renewable energy.
    Many parties have been working on these issues, and I want 
to say that we are particularly appreciative of Sealaska's 
efforts to assist us in this regard. All of these efforts will 
provide jobs both to native and non-native communities alike.
    Now, in that context, or concerns with the bill are as 
follows. First, the lands identified by Sealaska for timber 
development overlap to a considerable extent with lands that 
are critical to the success of the Forest Service's transition 
strategy over the next 10 to 15 years.
    These are lands that are central to providing local mills 
with sustainable, dependable wood for the foreseeable future. 
These are lands where we have invested over 50 million in the 
form of infrastructure and thinning efforts.
    And these represent some of the best lands for the 
transition period. Since Sealaska's intentions as we understand 
it are to export most of these logs abroad, we are genuinely 
concerned, however, how we will meet the needs of Sealaska's 
remaining mills, and the value added products that they 
support.
    Second, a portion of the lands targeted by Sealaska for 
development outside of the withdrawal areas are old growth 
reserves, which provide essential habitat for the Goshawk and 
the Gray Wolf, both species of concern.
    The Forest Service in its Tongass Land Management Plan 
committed to protecting these areas was an important factor in 
the Fish and Wildlife Service's support of the plan. If 
developed, we are concerned about the impact of the Goshawk and 
the Gray Wolf, and whether it could trigger petitions to list 
the species, and what the response of the United States Fish 
and Wildlife Service would be.
    Third, the Forest Service remains very concerned with the 
possibility of 30 new end-holdings of the so-called future 
sites within the National Forests. We know from experience that 
end-holdings are often problematic.
    They represent significant access issues, boundary issues, 
challenges to handling and controlling impacts on and off 
Federal land, and other general management issues. Fourth, we 
believe that the legislation will likely necessitate amendments 
to the Tongass Management Plan, a process that has proved 
difficult in the past years.
    So those are our concerns, Mr. Chairman, and with that said 
though, I want to emphasize that we are prepared to work with 
the Committee, with Sealaska, and other stakeholders to find 
appropriate solutions. Thank you very much.
    [The prepared statement of Mr. Sherman follows:]

  Statement of Harris Sherman, Under Secretary, Natural Resources and 
          Environment, United States Department of Agriculture

    Mr. Chairman, Honorable Ranking Member and distinguished members of 
the Committee, thank you for the opportunity to speak with you today 
about Native land claims in Southeast Alaska. I will open my testimony 
by addressing the direction in which the Department of Agriculture 
(USDA) and the Forest Service are heading regarding economic 
sustainability in Southeast Alaska and how our vision for economic 
diversification ties into H.R. 1408, the Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act.
    The USDA recognizes and supports the timely, equitable and final 
distribution of land entitlement to Alaska Native Corporations, 
including Sealaska, under the Alaska Native Claims Settlement Act 
(ANCSA). The USDA understands Sealaska's interest in acquiring lands, 
which have economic and cultural value. The USDA has been working with 
Sealaska. Members of Congress and other community partners to find 
solutions to move forward the land entitlement and finalization, and 
recognizes the progress that is reflected in S. 730, the Senate version 
of the Act. I also wish to express our continued interest in working 
collaboratively with Sealaska, Congress and other community partners to 
find an equitable solution that is in the public interest.
    While the USDA supports a number of the goals of this legislation, 
we continue to have a number of concerns we wish to work through with 
the involved parties. This will be the focus of my testimony. The 
testimony will also convey a Department of the Interior concern with 
H.R. 1408 regarding a cooperative management provision of the 
legislation.
Background
    When enacting ANCSA in 1971, Congress balanced the need for a fair 
and just settlement of Alaska Native aboriginal land claims with the 
need for use of the public lands in Alaska. The approach to resolve 
Alaska Native claims in ANCSA is unique in its reliance on the creation 
of Alaska Native Village and Regional Corporations, which generally 
receive entitlement from lands located within the original Native 
village withdrawal areas. Congress defined the land entitlements of 
both village and regional corporations, but provided for some 
differentiation among corporations to consider individual village or 
region circumstances.
    One such consideration was the reduction of land entitlement to the 
village and regional corporations representing Alaska Natives in 
Southeast Alaska. The Tlingit and Haida Tribes of Southeast Alaska 
brought a ``taking'' lawsuit against the United States for land claims 
and the U.S. Court of Claims awarded damages to the tribes shortly 
before ANCSA was enacted. Recognizing this prior award, Congress 
reduced the entitlement of village and regional corporations in 
Southeast Alaska, with Sealaska receiving its entitlement only under 
Section 14(h) of ANCSA.
    Sealaska has thus far received more than 290,000 acres of 14(h) 
entitlement, with approximately 63,605 acres of ANCSA entitlement yet 
to be conveyed, based on the Bureau of Land Management's (BLM) 
estimates. Sealaska has prioritized its selections within the original 
withdrawal areas as required by the 2004 Acceleration Act, with 
approximately 138,000 acres of prioritized selections identified. The 
selections identified by Sealaska within the original withdrawal areas 
are more than sufficient to meet Sealaska's remaining ANCSA 
entitlement, but were put on hold at Sealaska's request to pursue a 
legislative alternative to select outside the ANCSA withdrawl area to 
settle their remaining entitlements.
Southeast Alaska Transition Strategy
    Since testifying last before this committee, the USDA has made 
great strides in developing approaches to diversify and sustain the 
economy in Southeast Alaska. Through a coordinated interagency effort, 
USDA is focusing with local interests on ways to provide long-term, 
sustainable support for a wide array of economic opportunities for 
Southeast Alaska communities, including Alaska Natives around second-
growth timber production, ecosystem restoration, bio-energy, ocean 
products and tourism and recreation. Tourism and recreation, as a 
whole, has been the fastest growing industry in Southeast Alaska, 
employing over 3,200 people and accounting for $109 million in wages 
and benefits. Ocean products, including fisheries and mariculture, are 
providing in excess of $234 million in wages and benefits. Furthermore, 
we see an ecosystem restoration job sector providing more than 100 jobs 
in Southeast Alaskan communities. Beyond traditional opportunities, the 
Forest Service and other partner USDA agencies are working to 
facilitate future opportunities and growth in job sectors beyond 
forestry and forest products.
    To support the communities and people of Southeast Alaska, the 
Forest Service has developed a comprehensive 5-year plan focused on a 
suite of integrated projects including timber projects in the roaded 
base, pre-commercial thinning, integrated stewardship, road and 
watershed restoration and fish and wildlife habitat improvements, all 
designed to allow managers to mix and match and meet the local needs of 
Alaska Native villages and Southeast Alaskan communities. Furthermore, 
the agency issued a contract for asset mapping to identify economic 
strengths, weaknesses, opportunities and threats to diversification 
focused on the different economic clusters identified in our contract 
with the Juneau Economic Development Council. The USDA agencies just 
completed several months of meetings with working groups comprised of 
key industry leaders, including participation by Sealaska 
representatives. The groups addressed the integration of forest 
restoration and broad economic development in the areas of forest, 
ocean, visitor and energy products. Additionally, USDA has announced 
and distributed more than $55 million last year in funding to 
communities in Southeast Alaska for an array of projects and activities 
that demonstrates our commitment to Southeast Alaska. I am optimistic 
that the USDA can promote new economic opportunities for Southeast 
communities, including Alaska Natives, beyond the traditional focus of 
roadless old growth timber harvests.
    In this broad context, the USDA has determined its stance on H.R. 
1408 and evaluated whether it facilitates or hinders the 
Administration's goals for promoting job protection, creation, and 
economic diversification in Southeast Alaska.
    Conflict on the Tongass National Forest pertaining to the 
harvesting of old growth in roadless areas has intensified over the 
last 10-15 years. The forest has faced 18 lawsuits during this period, 
many of which were resolved through settlements or adverse judgments, 
but all of which cost valuable time and taxpayer dollars. The 
Administration recognizes a balance must be struck between many diverse 
and competing needs and we need to chart a course of action that moves 
us away from old growth and roadless area harvests sooner rather than 
later. To move us away from this conflict, we must operate on three 
primary principles 1) provide timber for local value added products; 2) 
keep the conservation strategy in the Tongas Land Management Plan and 
environmental values intact and 3) stay clear of roadless areas.
    We understand that Sealaska is interested in maintaining export of 
round logs, using a local workforce generally found in the rural 
communities of Southeast Alaska to do the harvesting and hauling. The 
Forest Service's primary interest is maintaining adequate supply of 
timber for local processing by existing mills and the jobs associated 
with those mills. This is a central aim of the transition strategy that 
the Forest Service has developed and one that is achievable if the 
Forest Service has access to a sufficient quantity of timber available 
on lands that have existing roads. The Forest Service and Sealaska have 
an interest in maintaining the loggers and other forestry 
infrastructure to support a local forest economy and both the Forest 
Service and Sealaska have an interest in moving away from the 
dependency on old growth and moving to harvesting young growth stands.
    The lands identified in H.R. 1408 represent a significant part of 
the Forest Service's roaded land base for Southeast Alaska identified 
in the Tongass Land Management Plan as suitable for timber harvest. The 
majority of the lands identified in H.R. 1408 are close to the only 
remaining medium sized mill and several smaller, local mills in the 
Tongass National Forest.
    The Forest Service has determined that approximately 64 percent of 
land withdrawn and available for selection in section 4(b)(1) of H.R. 
1408 overlaps projects listed on the Tongass 5 Year Plan. Specifically, 
the selections would impact six projects, which represent potential 
profitable sales to the medium sized mill and smaller local mills in 
the next five years. Additionally, the Forest Service has made 
substantive investments in lands identified in H.R. 1408 through 
environmental analysis, stand management, roads, log transfer 
facilities, maintenance, trails, fish habitat restoration and others 
activities, totaling more than $50 million.
    Approximately 6,900 acres of land identified for selection in 
section 3(b)(1) support an older age class of second growth forests (50 
years and older, on productive soils). These lands include more than 
5,000 acres on Kozciusco Island and another 1,275 acres on Kuiu. These 
selections cover areas that represent the Forest Service's best, first 
entry into commercial second growth, including projects currently 
listed on the Tongass' 5-year plan.
    Ultimately, the transfer of these of these older second growth 
stands from the Forest Service to Sealaska will reduce the available 
timber supply for local mills and hamper the Forest Service transition 
to second growth in Southeast Alaska. Removing these stands also means 
that more old growth areas would be harvested longer, because it will 
take more time for the second growth stands to mature into legally 
harvestable ages. The Forest Service believes this will increase the 
potential for litigation around timber sales and thereby create 
significant uncertainty for the forest industry.
    There are a number of ways this issue could be addressed, and USDA 
is willing to work with Sealaska to find a solution that meets the 
needs of all the affected parties and is in the public interest in 
Alaska.
Conservation Strategy and Old Growth Reserves (OGR)
    The Tongass Land Management Plan's conservation strategy was 
formulated around Sealaska's selections within the original ANCSA 
withdrawal areas. Old growth reserves found within the land pool 
identified in H.R. 1408 are central to the Tongass National Forest's 
conservation strategy as outlined in its land management plan. The land 
management plan includes a comprehensive, science-based conservation 
strategy to address wildlife sustainability and viability. This 
strategy includes a network of variable sized old growth reserves 
across the forest designed to provide for connectivity and maintain the 
composition, structure and function of the old growth ecosystem.
    In 1997, the US Fish and Wildlife Service (USFWS) decided not to 
list Queen Charlotte goshawk and Alexander Archipelago wolf under the 
Endangered Species Act, based on the protective measures incorporated 
in the conservation strategy of the 1997 Tongass Forest Plan, primarily 
the network of old growth reserves and the positioning of the reserves 
across the landscape, and the existence of forested corridors between 
the reserves. The USFWS reaffirmed this finding regarding the goshawk 
in 2007, and the Department of the Interior asked the Forest Service to 
retain the Conservation Strategy in the 2008 Tongass Forest Plan 
Amendment (TLMP). These were among the main reasons why the 2008 TLMP 
Amendment kept all the major components of the conservation strategy.
    Conveyance of land selections as proposed in H.R. 1408 will 
decrease the effectiveness of the Tongass' conservation strategy and 
could hamper the plan's ability to maintain viable populations of plant 
and wildlife species. This could lead to the need for USFWS to 
reconsider its previous determinations regarding the goshawk and gray 
wolf. Replacing the old growth reserve areas with an equal number of 
acres from somewhere else within the forest does not resolve the 
effects on the land management plan's conservation strategy; the 
location and design of the old growth reserve network is critical to 
the success of the conservation strategy. Distribution of the reserves 
across the landscape and composition of the habitat within each 
reserve, were carefully considered. Because of the potential Endangered 
Species Act issues, the Forest Service is concerned that H.R. 1408 
could increase the chances for litigation, which would increase 
uncertainty for all parties, including Sealaska and local mills. The 
USDA is willing to discuss mechanisms for maintaining these old growth 
reserves to ensure they remain whole.
    Although H.R. 1408 provides that implementation of this legislation 
will not require an amendment or revision to the Tongass Land 
Management Plan (TLMP), this language would not prevent issues from 
arising during TLMP implementation. If the significant management 
assumptions and strategies that formed the basis of the plan are 
modified through enactment of H.R. 1408, the TLMP cannot be implemented 
as currently intended.
Finalizing Sealaska Entitlement
    As the title of this legislation suggests, any legislated solution 
finalizing Sealaska's entitlement must actually resolve all of Sealaska 
entitlement issues upon enactment, such as remaining entitlement acres, 
resolve outstanding split estate issues, relinquish existing Sealaska 
ANCSA selections and removal of the original ANCSA withdrawal areas. 
This issue is significant to the Forest Service because without closure 
the agency cannot identify a stable land base and ensure that 
investments made today can be capitalized in the future. The Department 
of the Interior notes that H.R. 1408, if enacted, may set a precedent 
for other corporations to seek similar legislation
    In that context, we also have concerns about in-holdings. Selection 
from the land categories in section 4(b)(2) (``Sites with Traditional 
and Recreational Use Value''), in section 4(b)(3) (``Traditional and 
Customary Trade and Migration Routes'') and in section 4(c) (``Sites 
with Sacred, Cultural, Traditional, or Historic Significance,'') will 
result in a significant number of sites and routes scattered throughout 
the forest, creating in-holdings that cause significant management 
issues including access and boundary management problems. It is agency 
policy to avoid the creation of in-holdings. Likewise, the elimination 
of such in-holdings is, and has historically been, one of the agency's 
foremost land acquisition priorities. The Forest Service has extended 
considerable public resources to acquire the types of in-holdings that 
H.R. 1408 would create. We have concern over the 33 in-holdings created 
by the new land categories in H.R. 1408. The Forest Service estimates 
that surveying and boundary management for new Sealaska land selections 
under H.R. 1408.
    Additionally, the escrow provision included in the legislation does 
not address the relinquishment of any rights Sealaska may have to 
escrow funds from lands within the original withdrawal area. In 
addition, H.R. 1408 is also not clear on what right Sealaska may have 
to claim escrow on the new parcels identified, which have previously 
been harvested. The USDA advocates clearly articulating the escrow 
account provisions to relinquish Sealaska's right to escrow within the 
original ANCSA identified withdrawal areas.
Alaska Land Transfer Acceleration Act
    In line with the Alaska Land Transfer Acceleration Act of 2004, the 
USDA supports a reduced conveyance timeline. H.R. 1408, however, only 
provides for selections under section 4(b)(1) and would penalize 
Sealaska only if it had not made its selection under section 4(c)(2) 
within 15 years. Sealaska has previously provided copies of maps, which 
identify their sites of preference. Settling on those land selections 
prior to passage of H.R. 1408, could resolve one of USDA's primary 
concerns with H.R. 1408.
Public Access
    We continue to believe H.R. 1408 will affect the Forest Service's 
ability to provide for continuous public access for subsistence uses 
and recreation on the Tongass National Forest. The legislation provides 
Sealaska the right to regulate access on certain lands where the public 
use is incompatible with Sealaska's natural resource development, as 
determined by Sealaska. The ability of the Forest Service to provide 
for access, subsistence activities and public and commercial recreation 
and tourism and will be limited by enactment of the legislation.
Special Use Permits: Liability and Responsibility
    The USDA supports Sealaska's willingness to continue to allow 
outfitting and guiding permits on lands identified in section 4(b)(2) 
(``Sites with Traditional and Recreational Use Value'') for the 
remaining term of the existing authorizations and for a subsequent 10 
year renewal. However, the legislation should clearly specify that the 
existing Forest Service permits authorizing these uses would be revoked 
upon conveyance of the land, that Sealaska would allow continued use 
under the same terms and conditions as provided in the Forest Service 
permits, and that the United States would not be liable for the actions 
of these permittees. As it currently stands, the legislation 
specifically exempts Sealaska from liability, but provides for Sealaska 
to negotiate terms of the permit.
Amendments to the Tribal Forest Protection Act and the National 
        Historic Preservation Act
    This legislation includes amendments to the Tribal Forest 
Protection Act (TFPA) and the National Historic Preservation Act (NHPA) 
to consider lands owned by any Alaska Native Corporation as tribal-
owned lands for the purposes of these Acts, the implications of which 
are described below. The USDA is willing to discuss amendments to 
ANCSA; however, we view the amendments to the TFPA and NHPA as 
unrelated to fulfilling remaining ANSCA entitlement.
    The TFPA is intended to strengthen Forest Service relationships 
with federally recognized Tribes and to restore forested lands by 
authorizing the Secretary of Agriculture to enter into contracts and 
agreements with Tribes to carry out certain projects on the National 
Forests to reduce threats to adjacent or bordering lands owned by 
Tribes. The bill would extend the benefits of TFPA beyond those Tribes 
currently listed on the official list of federally acknowledged tribes 
in the contiguous 48 states and in Alaska. The Alaska Native 
Corporations are not Tribal Governments as recognized by the Bureau of 
Indian Affairs and they do not have the capability of having the 
Federal government hold their lands in trust.
    H.R. 1408 would amend the NHPA to include Alaska Native 
Corporations. Tribal lands as now defined in the NHPA include those 
within the boundaries of American Indian Reservations, which are 
governed by a Tribal Council duly elected by the Tribal members. These 
lands are managed for the benefit of Tribal members. Alaska Native 
Corporation lands, however, are managed by a corporate board of 
directors to provide a for-profit benefit to its shareholders.
    The inclusion of Alaska Native Corporations as parties entitled to 
the benefits prescribed under both the TFPA and NHPA is at odds with 
the intent to provide tribes with certain benefits prescribed by these 
Acts. Granting tribal status to lands owned by for-profit corporations 
for any purpose could have wider implications than what may be 
intended. The Department would like to have more time to assess this 
potential impact of this provision before the committee takes any 
action on it.
Cooperative Management of National Parks
    Although USDA defers to the Department of the Interior, USDA notes 
that DOI has expressed concerns with the cooperative management 
agreement provisions in sections 3(a)(2) and 3(c)(2) of H.R. 1408 would 
require the National Park Service (NPS) to offer to enter into 
cooperative management agreements with Sealaska and other corporations 
for activities in Glacier Bay National Park. This could confuse the 
execution of existing memoranda of understanding and concession 
contracts which are currently working well in the park. The NPS 
maintains a Memorandum of Understanding with the Hoonah Indian 
Association, a federally recognized tribe, as well as a cooperative 
agreement with the non-profit Huna Heritage Foundation to provide 
cultural learning activities in the park. Both entities are also 
partners in monitoring the condition of Tlingit historic sites in the 
park.
    In addition, requiring cooperative management agreements for such 
activities such as guided tours and establishment of visitor sites with 
profit-making corporations would be inconsistent with the open, 
competitive process currently provided under concession management law 
and regulation. Existing practices are already resulting in engaging 
Native Alaskans in the visitor experience: a subsidiary of Huna Totem 
Corporation has the Glacier Bay lodge and tour 2 3 contracts with 
Aramark Leisure Services through 2013, and Goldbelt Inc., a Juneau-
based Native corporation, had the contracts between 1996 and 2004.
Environmental Mitigation, Incentives and Credits
    Section 6(b) of H.R. 1408 would expressly authorize environmental 
mitigation and incentives for land conveyed to Sealaska. The USDA 
supports these provisions, which would allow any land conveyed to be 
eligible for participation in carbon markets or other similar programs, 
incentives or markets established by the federal government.
Conclusion
    In conclusion, while USDA supports the goals of this legislation, 
we remain concerned about the consequences of the legislation, 
including its ability to actually finalize the entitlement and current 
outstanding split estate issues and the potential for the legislation 
to bring to closure the question of Sealaska's entitlement under ANCSA. 
More broadly, USDA is concerned about the impact of H.R. 1408 on the 
supply of timber for local mills; the transition to a sustainable 
timber harvest regime focused on second-growth forests; and the 
overarching conservation strategy outlined in the Tongass Land 
Management Plan. However, the Department will continue to work with 
Sealaska and all the parties involved resolving these concerns and 
finding solutions that work for everyone.
    This concludes my testimony and I am happy to answer any questions 
you may have.
                                 ______
                                 
    Mr. Denham. Thank you, Mr. Sherman. I will now recognize 
Members of the Committee for five minutes, and if necessary, we 
would be happy to entertain a second round of questioning. I 
think first to my left, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Mr. Sherman, your 
written testimony states that the USDA views the amendments to 
the Tribal Forest Protection Act, and the National Historic 
Preservation Act included in this bill, as unrelated to the 
fulfillment of Sealaska's remaining land settlement.
    You also state that you have concerns about imputing the 
Alaska Native Corporations, such as Sealaska, as beneficiaries 
of these statutes. Would the USDA be willing to work with 
Sealaska on changes to these statutes in another bill, or are 
you wholly opposed to them?
    Mr. Sherman. Congressman, we are always willing to sit down 
and talk to Sealaska about these issues. Our main concern here 
has been that these provisions that you cited give essentially 
tribal government status to what is a profit making entity, and 
that is a highly unusual procedure.
    It could affect government relationships, and it could 
affect how we treat various things, but we are happy to talk to 
them, and work with them, and see if there is some sort of 
common approach here. But it is an unusual departure from what 
has happened in the past, and it does raise some concerns for 
us.
    Mr. Kildee. I have in my State of Michigan 12 Federally 
recognized tribes, and most of them flow from the Treaty of 
Detroit, signed in the 1850s, and there of course we have a 
clear-cut government-to-government relationship. Article I, 
Section 9 of the Constitution makes that very clear.
    Do the tribes in Alaska enjoy that same type of sovereignty 
that the tribes, the Federally recognized tribes in the Lower 
48 have.
    Mr. Sherman. We have a government-to-government 
relationship with the tribes of Southeast Alaska. We do have 
that. In this particular case, we are not dealing with a tribe, 
per se. We are dealing with a profit making corporation. That 
is what its purpose is.
    So we have maintained a government-to-government 
relationship with the Southeast Alaska Tribes, but we believe 
that this is a somewhat different situation.
    Mr. Kildee. Is there something necessarily bad in this 
instance, this unique area of the United States, the land that 
we purchased from Russia, and it became a State, I believe, 
around President Eisenhower's time.
    Is there anything necessarily improper about a corporation 
also having a governmental status, or is that just an attitude 
or feeling, or a value judgment?
    Mr. Sherman. I believe it is unusual. Whether it is 
unprecedented, I don't know. I mean, we can get back to you on 
this issue, but it is unusual, and it is a departure from the 
way that we have handled things in the past.
    But again we would be happy to sit down and talk about what 
are the specific issues related to this, and whether it would 
make any sense to consider an exception to the general 
approaches that we have used in the past.
    Mr. Kildee. If you have existing some comparison between 
the status of the Alaskan Native Americans and the status of 
tribes in the Lower 48, and if you have something existing, if 
you could get that both to the Committee and to me, I would 
appreciate that.
    Mr. Sherman. We would be happy to do so.
    Mr. Kildee. And thank you very much. Thank you for your 
interest in this, and thank you for your good work over there. 
I appreciate it very much.
    Mr. Sherman. Thank you.
    Mr. Kildee. I yield back, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Kildee. Mr. Sherman, in your 
testimony, the Forest Service expresses concern that the bill 
will take too much economically viable second growth timber of 
the 50 and older age class away from you, and that it will 
hamper the Forest Service's ability to transition the Tongass 
to a young growth harvesting strategy. Would you prefer to see 
Alaska receive increased old growth?
    Mr. Sherman. What I would prefer to see is a plan which 
would allow both Sealaska and the other entities to have an 
adequate source of timber to proceed in the future. Our concern 
here, Congressman, is that we have had a very delicate balance 
where the Forest Service has tried to target the next 15 to 20 
years by which we can provide wood to the local milling 
industry.
    And that has evolved, and identifying certain productive 
old growth areas outside of the so-called withdrawal areas that 
Sealaska was entitled to select lands in, and it has identified 
certain second growth areas, which would come on-line in order 
to meet these local needs.
    So our strategy and our plan has been to work on those 
areas, and set up those areas for the future. And unfortunately 
here what we are seeing is Sealaska having an equal interest in 
those lands that we were preparing.
    Now, what does that mean in terms of where Sealaska could 
go? I think that would be--I think we would have to identify 
within the withdrawal areas what lands are available to them 
for timber development on the remaining selections.
    There are some second growth areas within those lands. 
There is a possibility that we could discuss with Sealaska on 
their participation in timber sales for Forest Service lands. 
There may be some other options that we ought to be looking at, 
but again these lands were very critical to us to provide 
adequate timber to the local milling industry.
    Mr. Denham. Thank you, and I know that the Forest Service 
is looking for more time to work out differences on the bill, 
and I know that the Chairman expects to have this bill done for 
the 40th anniversary, which is this December, but what is your 
time line for working issues out and resolving this?
    Mr. Sherman. We have been having productive conversations, 
I believe, with Sealaska. We have been identifying areas that 
need further examination. I think that the area that you just 
mentioned was one where we had to intensify our evaluation of 
which lands they are interested in, and how those overlap with 
our interests, and see if there is some sort of resolution of 
that.
    We are very focused on these old growth preserves outside 
of the withdrawal areas, because we need to protect those 
areas. But we can talk further with Sealaska about how to 
protect those areas.
    The in-holdings that Sealaska has identified as so-called 
future sites, these need further evaluation, and we have been 
working with Sealaska on those. All of these areas are 
fruitful, and future discussions that I believe we can have 
with Sealaska, and there is no reason not to continue actively 
with those discussions.
    I am reluctant to predict some sort of a time line because 
these are complicated issues. Nevertheless, we should roll up 
our sleeves and do our best.
    Mr. Denham. Well, it is understandable that they are 
complicated issues, but we definitely work on timelines here, 
and the Chairman has focused on again the 40th anniversary in 
getting this done by December. So do you have any kind of 
ballpark time? Are we talking a month, two months, 45 days? 
Could you commit to 45 days?
    Mr. Sherman. I don't believe I can commit to a particular 
timeline, but I can commit to you that we will continue 
actively our discussions with Sealaska and see what progress we 
can make.
    Mr. Denham. Are you confident that we can complete this 
then this year?
    Mr. Sherman. I am not either confident nor pessimistic 
about it. I think we have to see as we bore down on these 
specific----
    Mr. Denham. So you are having ongoing discussions, but you 
are nowhere close right now to any type of resolution?
    Mr. Sherman. I think we are getting closer to understanding 
what our respective concerns are, and we are working on 
solutions to address those concerns.
    Mr. Denham. You are getting closer to understanding what 
the concerns would be?
    Mr. Sherman. Closer to understanding, and I believe from 
that understanding, solutions may be forthcoming.
    Mr. Denham. OK. Thank you. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Mr. Sherman, as you 
probably know, I represent Hawaii, and so the issues regarding 
Native rights are very dear to my heart, and I do believe in 
self-determination of the Native peoples.
    Having said that, one of the concerns that I have with your 
testimony is really set forth in your conclusion, where you 
have concerns about the legislation itself, and the fact that 
it is changing the status of lands.
    I am also very concerned about when we try to right a wrong 
that we make it worse by buying litigation. So I would like to 
understand what is it about it that--and I assume that you are 
talking about the miscellaneous section of the bill itself, 
where it speaks to the status of the conveyed lands.
    And so I would like to understand from you what is it about 
the statements that are contained in this bill, which I believe 
talks about making them into tribal lands of some sort, and 
thereby it seems like it is transferring it into the same 
category of Native American lands, and a trust relationship may 
or may not develop.
    So am I understanding your concern correctly, and if not, 
please tell me exactly what you are referring to in your 
conclusion?
    Mr. Sherman. Well, our concern is multifaceted. We are 
first concerned about if certain lands are selected that 
present challenges to the conservation strategy that has been 
set by the Forest Service for Southeast Alaska, we are 
concerned that litigation could result from that.
    And we are concerned that certain species could be listed, 
which again would represent a step backwards. Second, we are 
concerned about the in-holdings that I identify, because in-
holdings have been very problematic across the United States 
for the Forest Service.
    Many of our programs are designed to eliminate in-holdings, 
because they represent so many, both legal and managerial, 
challenges for the Agency. We are very concerned about that.
    And we are concerned that we have to meet the needs of 
Alaska, in terms of timber production. That is a statutory 
requirement that we have, and if we can't provide the resources 
to do that, that will become problematic.
    So there is a series of issues like that, that again raise 
both legal and managerial challenges for us, and we believe 
that if we are going to change the arrangement that was made 
under ANCSA that it has got to be done very carefully, and we 
have to go in with our eyes wide open.
    Ms. Hanabusa. Mr. Sherman, I appreciate the explanation, 
because I thought that your concern was not so much one--and 
not to minimize your concern, but was not so much one that I 
feel will fall into the category of the self-determination 
rights of the Native people, versus what the Forest Service or 
the Department of Agriculture may think is in the best 
interests of everyone.
    I thought that it was more like, for example, in the 
Carcieri decision of the Supreme Court, which talked whether 
lands could be transferred, and having that clarification from 
you, aren't you basically saying now that there is this plan, 
and you are afraid that if Sealaska, if this bill goes through, 
and they are then afforded the right to withdraw these specific 
parcels of land, that it will somehow cause an imbalance in 
what you feel to be the plan that has come through. Am I 
understanding you correctly?
    Mr. Sherman. That is correct. Let me be very clear. We 
believe that Sealaska is entitled to between 60 to 80,000 
additional acres of land. Initially, those lands that they had 
targeted within what we call the withdrawal area.
    So this request is now outside of the withdrawal areas, and 
that represents certain challenges to the plan that the Forest 
Service had established for Southeast Alaska.
    Ms. Hanabusa. I understand that, Mr. Sherman, and I would 
just like to add that give your clarification, I believe that 
for those of us who believe in Native rights and Native 
determinations, the fact that this has not been done for 40 
years, that I can understand very clearly why now the Chairman 
has proposed this piece of legislation.
    Because it is something that you can't--when you are trying 
to right a wrong, or right something that has not been done, 
you can't just say, well, we will do it, but it is conditioned 
upon everything that has gone on for 40 years. Thank you very 
much, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Hanabusa. Are there any 
additional questions for this witness? If not, I would like to 
thank the Under Secretary for his testimony. Members of the 
Subcommittee may have additional questions for the witnesses, 
and we ask that you respond to those in writing. The hearing 
record will be open for 10 days to receive these responses.
    We are now ready for our next panel of witnesses. Those are 
witnesses Byron Mallott, a Board Member of the Sealaska 
Corporation; Bob Claus, the Forest Program Director of the 
Southeast Alaska Conservation Council; and Owen Graham, 
Executive Director of the Alaska Forest Association.
    Before I recognize the witnesses, I would ask for unanimous 
consent that written comments on H.R. 1408 from the Washington, 
D.C. Representative for Alaska Governor Sean Parnell, and from 
the President of the Intertribal Council, be inserted in the 
hearing record. Hearing no objection, so ordered.

    [A letter submitted for the record by Joe Durglo, 
President, Intertribal Timber Council, follows:]
[GRAPHIC] [TIFF OMITTED] 66652.006

.eps[GRAPHIC] [TIFF OMITTED] 66652.007

    .eps[The letter submitted for the record by John W. Katz, 
Director of State/Federal Relations and Special Counsel to the 
Governor, State of Alaska, Juneau, Alaska, follows:]
[GRAPHIC] [TIFF OMITTED] 66652.003

.eps[GRAPHIC] [TIFF OMITTED] 66652.004

.eps[GRAPHIC] [TIFF OMITTED] 66652.005


    .epsMr. Denham. All the witnesses again are reminded that 
their complete written testimony will appear in the written 
record, and you have five minutes to summarize it. You may 
begin.

STATEMENT OF BYRON MALLOTT, BOARD MEMBER, SEALASKA CORPORATION, 
                         JUNEAU, ALASKA

    Mr. Mallott. Mr. Chairman, my name is Byron Mallott, and I 
am a Director of the Sealaska Corporation. I have asked Jaeleen 
Araujo, who will provide her name, to sit with me in the event 
that there are specific questions that I am unable to answer if 
that is all right with you.
    Mr. Denham. Without objection, so ordered.
    Mr. Mallott. I want to state that this bill is strongly 
supported by Sealaska. We believe that its intent is clear. 
That after 40 years, it is time to resolve and finalize 
Sealaska's entitlement under the Alaska Native Claims 
Settlement Act.
    I want to be responsive to several issues that I have heard 
raised. One is that it is Sealaska's intent to export any 
timber that it harvests from these selections. That is not the 
case. It has never been the case. What we do is to try to find 
the most reasonable and responsible market for our timber.
    And if the market suggests that it is appropriate for us, 
and that is our desire, our absolute desire, is to maximize the 
local use, the local hire, the local economic impact with all 
of our resources, and that is something that I think we need to 
emphasize.
    The other thing that I want to emphasize, Mr. Chair, is 
that Sealaska's timber harvest activities over the period since 
we began to establish a new kind of forest products industry in 
Alaska on private tribal lands has put close to in my judgment 
a billion dollars into the Alaskan economy.
    It has generated over $300 million to other Native 
corporations. It has impacted the overall economy of the region 
and the State in the most positive way, and it has allowed a 
resource to be available for regeneration for the future.
    Now, some people would argue that the harvest practices 
that the remaining harvested forests has not meaningful value. 
I would submit that to Native peoples, who are the first 
peoples of the forest, it does.
    We are here for the long term. We have been here for 10,000 
years, and we will be here for another 10,000 years, and we 
will see cycles of timber begin as seedlings, and achieve old 
growth, and go through the life process many, many times.
    That is our view of the Tongass National Forest. I would 
also say, Mr. Chair, that it is time to resolve this issue. 
That the Native peoples of Southeast can use the land 
productively, and we can use it in the best interests of our 
Nation, in terms of conservation, in terms of all of the uses 
that such lands can be put to, both in our interests and in the 
public interest.
    It is somewhat ironic to me that the argument can be made 
that the best arbiter, the best judgment about the use of a 
marketable resource, can be made by the government, as opposed 
to private enterprise and a private owner.
    That argument does not stand. History is replete with the 
results of that kind of management. I also want, Mr. Chairman, 
to say that regardless of what happens with any legislation 
that affects us, our people, that we live with the 
consequences, good or bad, or indifferent, because we will 
never leave this place, the Tongass.
    It is our home. It is our history, and it is our culture. 
It is what makes us who we are, and we only want to secure our 
place for ourselves, and for our children. Thank you.
    [The prepared statement of Mr. Mallott follows:]

     Statement of Byron Mallott, Board Member, Sealaska Corporation

    Mr. Chairman and Members of the Subcommittee:
    My name is Byron Mallott, and I am a Board Member for Sealaska 
Corporation, as well as a former President and CEO of Sealaska. I am 
from Yakutat, an Alaska Native village, and I am Shaa-dei-ha-ni (Clan 
Leader) of the Kwaashk'i Kwaan. My Tlingit name is K'oo deel taa.a.
    I want to thank you for the opportunity to testify on behalf of 
Sealaska, the regional Alaska Native Corporation for Southeast Alaska, 
regarding H.R. 1408, the ``Southeast Alaska Native Land Entitlement 
Finalization Act,'' a bill that we refer to as Haa Aani in Tlingit, 
which roughly translates into ``Our Land'' or ``Our Place''. ``Haa 
Aani'' is the Tlingit way of referring to our ancestral and traditional 
homeland and the foundation of our history and culture.
    Sealaska is one of 12 Regional Corporations established pursuant to 
the Alaska Native Claims Settlement Act (``ANCSA'') of 1971. Our 
shareholders are descendants of the original Native inhabitants of 
Southeast Alaska--the Tlingit, Haida and Tsimshian people. Our 
ancestors once used and occupied every corner of Southeast Alaska and 
our cultural and burial sites can be found throughout the region. This 
legislation is a reflection of the significance of Our Land to our 
people and its importance in meeting our cultural, social and economic 
needs.
    Forty years ago, as a young man, I traveled to Washington, DC as an 
advocate for the land claims of Alaska's Native people. Here I am 
again, forty years later, advocating for the equitable completion of 
Sealaska's land entitlement.
    This legislation involves less than 85,000 acres from the Southeast 
Alaska region, a region with almost 23 million acres of land; 85% of 
that land is already in some form of conservation, wilderness or other 
protected status. Putting the Sealaska legislation in perspective, 
Sealaska's remaining land entitlement represents about one third of one 
percent of the total land mass in Southeast Alaska.
    Yet this legislation also represents a significant opportunity for 
the public, Congress, the Administration, communities, environmental 
organizations and others to get it right for once in the Tongass. H.R. 
1408 achieves environmental balance, sustains jobs, ensures that Native 
people are viable participants in our economy, and returns important 
cultural and economic lands to Southeast Alaska's Native people.
    H.R. 1408 fulfills the promise of ANCSA because it:
        <bullet>  allows Sealaska to finalize its ANCSA land 
        entitlement in a fair, meaningful way;
        <bullet>  redresses inequitable legal limitations on Sealaska's 
        land selections by allowing it to select remaining entitlement 
        lands from outside of withdrawal areas that, among the regional 
        Alaska Native Corporations, uniquely constrained Sealaska;
        <bullet>  allows for Alaska Native ownership of sites with 
        sacred, cultural, traditional and historic significance to the 
        Alaska Natives of Southeast Alaska;
        <bullet>  creates the opportunity for Sealaska to support a 
        sustainable rural economy and to support economic and job 
        opportunities throughout Southeast Alaska; and
        <bullet>  results in environmental benefits to the public 
        because high conservation value lands important for fisheries, 
        old growth wildlife reserves, areas important for local 
        subsistence use and municipal watersheds will remain in public 
        ownership.
    As discussed in detail in my testimony below, there is a 
compelling, equitable basis for supporting this legislation. There is 
no dispute that Sealaska has a remaining land entitlement, and this 
legislation does not give Sealaska one acre of land beyond that already 
promised by Congress. Sealaska has worked closely with the timber 
industry, conservation organizations, tribes and Native institutions, 
local communities, the State of Alaska, and federal land management 
agencies to craft legislation that provides the best possible result 
for the people, communities and environment of Southeast Alaska.
    One thing has become extremely clear in our effort to resolve 
Sealaska's land entitlement--that every acre of Southeast Alaska is 
precious to someone. With the vast array of interests in Southeast 
Alaska, there is simply no way to achieve an absolute consensus on 
where and how Sealaska should select its remaining entitlement. 
However, we truly believe that this legislation offers a balanced 
solution as a result of our engagement with all regional stakeholders.
Our Dilemma
    Alaska Native Corporations were tasked by Congress in 1971 with 
supporting the economic future of the Alaska Native community, in part 
by utilizing lands returned by the United States to Native people to 
develop resources that would advance the social, economic and cultural 
well-being of our tribal member shareholders.
    We believe that Congress' core promise to Alaska Natives in ANCSA 
was that Alaska Natives would be able to develop sustainable economies 
so that we could work to achieve for ourselves economic parity with the 
rest of America. Socio-economic parity was a focal point of Alaska 
Natives and the Land, a congressionally-mandated study published in 
1968, which was a foundational predicate for Congress to act on Alaska 
Native land claims.
    Sealaska has utilized some of its land base to develop timber 
resources. Of the 290,000 acres Sealaska has received under ANCSA, 
Sealaska has harvested timber on 189,000 acres in accordance with 
modern forestry and forest engineering best management practices that 
protect water quality, anadromous fish habitat, wildlife habitat, 
forest soils, and the long term productivity of the forest. Selective 
harvesting and even-aged harvesting has been employed. Less than half 
(81,000 acres) of managed forest lands have been clear cut (even-aged 
harvest). Sealaska's timber business has been a powerful economic 
engine that has helped to support the regional economy for 30 years, 
and seventy percent of Sealaska's timber revenues have been shared with 
more than 200 Alaska Native Corporations, as required under sections 
7(i) and 7(j) of ANCSA. Wherever it selects the land, Sealaska may 
choose to utilize some of its remaining entitlement to support 
sustainable forestry with a timber rotation that could sustain hundreds 
of jobs in our region, in perpetuity, while protecting important forest 
resources.
    Unlike the other eleven Regional Native Corporations, Sealaska was 
directed to select the entirety of its entitlement lands only from 
within boxes drawn around just ten of the Native villages in Southeast 
Alaska. Forty-four percent of the ten withdrawal areas is comprised of 
salt water, and multiple other factors limit the ability of Sealaska to 
select land within the boxes. This has made it difficult to make 
equitable selections. No other Regional Corporation was treated in this 
manner under ANCSA.
    To date, Sealaska has selected 290,000 acres of land under ANCSA 
from within the withdrawal boxes. Based on Bureau of Land Management 
(``BLM'') projections for completion of the Section 14(h)(8) 
selections, and our own estimates, the remaining entitlement to be 
conveyed to Sealaska is between 65,000 and 85,000 acres of land. The 
only remaining issue is where this land will come from. Of the lands 
available to Sealaska today within the ANCSA withdrawal boxes:
        <bullet>  270,000 are included in the current U.S. Forest 
        Service inventory of roadless forestland;
        <bullet>  112,000 acres are comprised of productive old growth;
        <bullet>  60,000 acres are included in the Forest Service's 
        inventory of Old Growth Habitat Land Use Designation (LUD) 
        lands; and
        <bullet>  much of that land is comprised of important community 
        watersheds, high conservation value lands important for sport 
        and commercial fisheries and areas important for subsistence 
        uses.
    The Sealaska legislation allows Sealaska to move away from 
sensitive watersheds and roadless areas, to select a balanced inventory 
of second growth and old growth, and to select most of its remaining 
ANCSA lands on the existing road system, preserving on balance as much 
as 40,000 acres of old growth, much of which is inventoried ``roadless 
old growth''.
Why is Sealaska Corporation Different?
    A common misperception of the Sealaska bill is that Sealaska is 
required to select its Native lands from within the 10 withdrawal areas 
in Southeast Alaska because Sealaska ``asked for it''. This perception 
is reflected in opinion pieces in Alaska newspapers and has been shared 
with Committee staff for the House and Senate Committees of 
jurisdiction. We therefore believe this misconception should be 
addressed here.
    ANCSA authorized the distribution of approximately $1,000,000,000 
and 44,000,000 acres of land to Alaska Natives and provided for the 
establishment of 12 Regional Native Corporations and more than 200 
Village Corporations to receive and manage the funds and land to meet 
the cultural, social, and economic needs of Native shareholders.
    Under section 12 of ANCSA, each Regional Corporation, other than 
Sealaska, was authorized to receive a share of land based on the 
proportion that the number of Alaska Native shareholders residing in 
the region of the Regional Corporation bore to the total number of 
Alaska Native shareholders, or the relative size of the area to which 
the Regional Corporation had an aboriginal land claim bore to the size 
of the area to which all Regional Corporations had aboriginal land 
claims. While each other Regional Corporation received a significant 
quantity of land under section 12 of ANCSA, Sealaska received land only 
under section 14(h) of that Act.
    Sealaska did not receive land in proportion to the number of Alaska 
Native shareholders, or in proportion to the size of the area to which 
Sealaska had an aboriginal land claim, in part because, in 1968, some 
compensation was provided to the Tlingit and Haida Indian by the U.S. 
Court of Claims, which determined that the Tlingit and Haida Indians 
were entitled to recover $7.5 million for the taking of the 17 million 
acre Tongass National forest and 3.3 million acre Glacier Bay National 
Park.
    The 1968 Court of Claims payment should be viewed in context with 
the universal settlement reached by Congress just three years later 
that allowed for the return of 44 million acres to Alaska's Native 
people. With a population that represented more than 20 percent of 
Alaska's Native population in 1971, Southeast Alaska Natives ultimately 
will receive title to only 1 percent of lands returned to Alaska 
Natives under ANCSA.
    Moreover, the 1968 settlement provided by the Court of Claims did 
not compensate the Tlingit and Haida for 2,628,207 acres of land in 
Southeast Alaska also subject to aboriginal title. These lands became 
an important basis for the participation of the Southeast Alaska 
Natives in the settlement in 1971. The court also determined the value 
of the lost Indian fishing rights at $8,388,315, but did not provide 
compensation for those rights. These rights were pursued through a 
property claims action before the Indian Claims Commission, originally 
filed in 1954, but there was no decision on the merits when ANCSA 
passed in1971. The Commission subsequently ruled that ANCSA 
extinguished such claims and the proceeding became a moot.
    Sealaska ultimately would be entitled to recover as much as 375,000 
acres of land under ANCSA. However, under the terms of ANCSA, and 
because the homeland of the Tlingit, Haida and Tsimshian people had 
been reserved as a national forest, the Secretary of the Interior was 
not able to withdraw any land in the Tongass for selection by and 
conveyance to Sealaska. The only lands available for selection by 
Sealaska in 1971 were slated to become part of the Wrangell-St. Elias 
National Park or consisted essentially of mountain tops.
    For this reason, in the early 1970s, Sealaska requested that 
Congress amend ANCSA to permit Sealaska to select lands from within 10 
withdrawal boxes established under ANCSA for the 10 Southeast Native 
villages recognized under that Act. In 1976, Congress granted that 
right.
    In short, in the 1970s Sealaska sought areas from which to make 
selections because, at that time, Southeast Alaska's Native people had 
no other place to go in the Tongass, their very homeland. The 
suggestion that Alaska's Native people invited their own exclusion from 
their Native homeland is an idea that any compassionate witness to our 
history should find repugnant. It was a choice between something 
limited or nothing at all. Hardly a choice.
    H.R. 1408 addresses problems associated with the unique treatment 
of Sealaska and the unintended public policy consequences of forcing 
Sealaska to select its remaining entitlement from within the existing 
ANCSA withdrawals. The legislation presents to Congress and to this 
Administration a legislative package that will result in public policy 
benefits on many levels. H.R. 1408 allows Sealaska to select from 
alternative, well defined withdrawals areas in Southeast Alaska. The 
legislation enables the conveyance of the final acres to which Sealaska 
is entitled--and not one acre more.
    Historic pressures resulted in the political marginalization and 
spatial confinement of Native people in Southeast Alaska, documented in 
``A New Frontier'' (discussed directly below), including federal 
pressures to prevent Native claims from impacting the timber industry. 
These pressures no longer (we hope) restrict the decisions of either 
the Congress or the Forest Service in pursuing a legislative solution 
that will enable Sealaska to finalize its Native entitlement in a 
manner that is both equitable and results in minimal impacts to other 
interests in the Tongass.
    Observers unfamiliar with ANCSA sometimes suggest that the Sealaska 
legislation might somehow create a negative precedent with respect to 
Alaska Native land claims. This seems odd in the context of the history 
of the Tongass and its impact on the Southeast settlement. Moreover, 
ANCSA has been amended more than 30 times. ANCSA was and remains a 
congressional undertaking, and as a statute, it is organic. As observed 
by Senator Mark Begich at a hearing on this bill before the Senate 
Subcommittee on Public Lands and Forests in October 2009, Congress has, 
on multiple occasions, deemed it appropriate to amend ANCSA to address 
in an equitable manner issues that were not anticipated by Congress 
when ANCSA passed.
Additional Observations: Why Native Land Claims Are Unique in the 
        Tongass
    Two documents present an important historical perspective on the 
long struggle to return lands in the Tongass to Native people: (1) the 
draft document funded by the Forest Service and authored by Dr. Charles 
W. Smythe, ``A New Frontier: Managing the National Forests in Alaska, 
1970-1995'' (1995) (``A New Frontier''); and (2) a paper by Walter R. 
Echo-Hawk, ``A Context for Setting Modern Congressional Indian Policy 
in Native Southeast Alaska (``Indian Policy in Southeast Alaska''). A 
four page summary of the paper by Mr. Echo-Hawk is attached to this 
testimony; due to Committee limitations on the length of attachments to 
written testimony, we were not able to attach the full documents to 
this testimony.
    The findings and observations summarized below are to be attributed 
to the work of Dr. Smythe and Mr. Echo-Hawk. For the sake of brevity, 
we have summarized or paraphrased these findings and observations. We 
encourage people with an interest in the history of the Tongass 
generally, or in this legislation specifically, to take the time to 
read these documents in full.
    Dr. Smythe's research, compiled in ``A New Frontier'', found, among 
other things:
        <bullet>  By the time the Tongass National Forest was created 
        in 1908, the Tlingit and Haida Indians had been marginalized. 
        As white settlers and commercial interests moved into the 
        Alaska territory, they utilized the resources as they found 
        them, often taking over key areas for cannery sites, fish 
        traps, logging, and mining.
        <bullet>  The Act of 1884, which created civil government in 
        the Alaska territory, also extended the first land laws to the 
        region, and in combination with legislation in 1903, settlers 
        were given the ability to claim areas for canneries, mining 
        claims, townsites, and homesteads, and to obtain legal title to 
        such tracts. Since the Indians were not recognized as citizens, 
        they did not have corresponding rights (to hold title to land, 
        to vote, etc.) to protect their interests.
        <bullet>  For decades prior to the passage of ANCSA, the Forest 
        Service opposed the recognition of traditional Indian use and 
        aboriginal title in the Tongass National Forest. As late as 
        1954, the Forest Service formally recommended that all Indian 
        claims to the Tongass be extinguished because of continuing 
        uncertainty affecting the timber industry in Southeast Alaska.
        <bullet>  On October 7, 1959, the U.S. Court of Claims held 
        that the Tlingit and Haida Indians had established their claims 
        of aboriginal Indian title to the land in Southeast Alaska and 
        were entitled to recover compensation for the taking of their 
        lands, and for the failure to protect their hunting and fishing 
        rights.
        <bullet>  The efforts by the Interior Department in the 1930s 
        and 1940s to establish reservations in Southeast Alaska alarmed 
        the Forest Service--which at the time opposed the principle of 
        aboriginal rights and its serious conflict with plans for a 
        pulpwood industry in Alaska.
        <bullet>  The policy of the Roosevelt Administration, with 
        Harold Ickes as Interior Secretary, was to recognize aboriginal 
        rights to land and fisheries in Alaska and to support efforts 
        to provide a land and resource base to Native communities for 
        their economic benefit. Following hearings on the aboriginal 
        claims related to the protection of fisheries, Secretary Ickes 
        established an amount of land to be set aside for three village 
        reservations: Hydaburg--101,000 acres; Klawock--95,000; acres 
        Kake--77,000 acres.
        <bullet>  The judgments of the Department of the Interior were 
        troubling to the Forest Service. If realized, the whole timber 
        industry in southeast Alaska would be jeopardized.
        <bullet>  The Department of Agriculture later expressed its 
        agreement with the efforts of the U.S. Senate to substantially 
        repeal the Interior Secretary's authority to establish the 
        proposed reservations in Southeast Alaska.
    Walter Echo Hawk's paper, ``Indian Policy in Southeast Alaska'', 
observes, in part:
        <bullet>  The Tongass National Forest was actually established 
        subject to existing property rights, as it stated that nothing 
        shall be construed ``to deprive any persons of any valid 
        rights'' secured by the Treaty with Russia or by any federal 
        law pertaining to Alaska. This was ignored.
        <bullet>  A Tlingit leader and attorney William Paul won a 
        short-lived legal victory in the Ninth Circuit Court of Appeals 
        in Miller v. United States, 159 F. 2d 997 (9th Cir. 1947), 
        which ruled that lands could not be seized by the government 
        without the consent of the Tlingit landowners and without 
        paying just compensation.
        <bullet>  To combat this decision, federal lawmakers passed a 
        Joint Resolution authorizing the Secretary of Agriculture to 
        sell timber and land within the Tongass National Forest, 
        ``notwithstanding any claim of possessory rights'' based upon 
        ``aboriginal occupancy or title.'' This action ultimately 
        resulted in the Tee-Hit-Ton Indians v. United States decision, 
        in which the U.S. Supreme Court held that Indian land rights 
        are subject to the doctrines of discovery and conquest, and 
        ``conquest gives a title which the Courts of the Conqueror 
        cannot deny.'' 348 U.S. 272, 280 (1955). The Court concluded 
        that Indians do not have 5th Amendment rights to aboriginal 
        property. The Congress, in its sole discretion, would decide if 
        there was to be any compensation whatsoever for lands stolen.
H.R. 1408: A Legislative Solution with Significant Public Policy 
        Benefits
    Alaska's congressional delegation has worked hard to ensure that 
the fair settlement of Sealaska's Native land claim is accomplished in 
a manner that may have the greatest benefit to all of Southeast Alaska 
with the least possible impact on individuals, communities, federal and 
state land management agencies, and other interested stakeholders.
    This legislation is also largely in symmetry with the goals of the 
Obama Administration for the Tongass, which has worked to protect 
roadless areas and accelerate the transition away from forest 
management that relied on old growth harvesting. The Administration has 
been clear that it wants to help struggling communities in rural 
Alaska. The Administration also has dedicated unprecedented resources 
to working with American Indian and Alaska Native communities 
nationwide. This legislation helps to finalize Sealaska's Native 
entitlement in an equitable way, while supporting a transition by 
Sealaska to second growth harvesting and maintaining rural Southeast 
Alaska jobs.
    Without legislation to amend ANCSA, Sealaska will be forced either 
to select and develop roadless old growth areas within the existing 
withdrawals or shut down all Native timber operations, with significant 
negative impacts to rural communities, the economy of Southeast Alaska, 
and our tribal member shareholders. This legislation proposes an 
alternative: H.R. 1408 would permit Sealaska to select its remaining 
entitlement lands from outside of the ANCSA withdrawal boxes. The 
alternative land pool from which Sealaska could select under H.R. 1408 
includes forestland suitable for timber development, but commits 
Sealaska to also select second growth in lieu of the old growth 
available to Sealaska today. In fact, the legislation ultimately would 
preserve as much as 40,000 acres of old growth, and even more 
inventoried roadless acres, to be managed as part of the Tongass 
National Forest.
    H.R. 1408 would permit Sealaska to select 3,600 acres of land as 
sacred and cultural sites, and 5,000 acres of small parcels of land 
often referred to as ``Native futures sites''. Under the terms of the 
legislation, no timber or mineral development would be permitted on 
sacred sites or Native futures sites. Because Sealaska would be 
permitted to select these sites in lieu of timberlands, these 
provisions reduce overall timber acres available to Sealaska by 8,600 
acres.
    Although Sealaska would thus give up ``economic'' assets under the 
proposed legislation, we believe the Southeast Alaska Native community 
will benefit because 3,600 acres of sacred sites will be returned to 
Native ownership. The community will also benefit from the 30 smaller 
selections (Native futures sites) that would be made available for 
development as green energy (tidal, geothermal, or run-of-river hydro) 
sites, bases for ecotourism or cultural tourism, or simply to exist as 
sites in Native ownership. By permitting Sealaska to select a handful 
of small parcels for such uses, H.R. 1408 helps to preserve Native 
culture in perpetuity, ensures that the Tongass remains a Native place, 
and provides the catalyst for creating sustainable economies within the 
Tongass.
    The public benefits of this legislation extend far beyond Sealaska 
Corporation and its shareholders. Pursuant to a revenue sharing 
provision in ANCSA, Sealaska distributes 70 percent of all revenues 
derived from the development of its timber resources--more than $315 
million since 1971--among all of the more than 200 Alaska Native 
Corporations.
    As discussed throughout this legislation, Sealaska's land 
legislation strategy was also driven in large part by conservation 
organizations' stated public goals of ``protecting roadless areas'', 
``protecting old growth reserves'', ``accelerating the transition to 
second growth'' and creating alternate economies.
    Finally, movement toward completion of Sealaska's ANCSA land 
entitlement conveyances will benefit the federal government. This 
legislation allows Sealaska to move forward with its selections, which 
ultimately will give the BLM and the Forest Service some finality and 
closure with respect to ANCSA selections in the region.
The Forest Service's Plans for the Tongass: Impact of H.R. 1408 on 
        Tongass Management
    The U.S. Forest Service has, in the past, expressed concern that 
H.R. 1408 could impact its ability to harvest second growth to support 
Southeast Alaska mills, and could impact other goals laid out in the 
2008 Amendment to the Tongass Land Use Management Plan.
    We believe Sealaska's offer to leave behind roadless old growth 
timber in the Tongass is significant; it is a proposal we believe this 
Administration should support based on its goals to protect these types 
of forest lands. We also believe that lands proposed for conveyance 
under H.R. 1408 conflict minimally with and may ultimately benefit the 
Forest Service's Transition Framework for the Tongass.
    The Forest Service uses various classifications to define the 
condition of its second growth. The term ``suitable'' means that 
forestland is available for harvest. The term ``unsuitable'' refers to 
lands that are not available for harvest under normal harvest 
prescriptions. For purposes of our calculations, unsuitable lands 
exclude second growth in conservation designations, but include second 
growth available for restoration and stewardship contracting.
        <bullet>  There are 428,972 acres of second growth on the 
        Tongass National Forest.
                <all>  57% is available for harvest--suitable acres
                <all>  43% is not available for harvest, except through 
                restoration and stewardship contracts--unsuitable acres
        <bullet>  Of the oldest second growth (over 40+ years):
                <all>  44% is suitable for harvest
                <all>  56% is unsuitable
        <bullet>  Sealaska selection of second growth would include 
        approximately (an approximation is made due to differences 
        between the bills introduced in the Senate and the House):
                <all>  7% of the total second growth
                <all>  9% of the suitable second growth
                <all>  4% of the unsuitable second growth
        <bullet>  Sealaska selections of age 40+ second growth include:
                <all>  12% of the total 40+ second growth
                <all>  9% of the 40+ second growth is from suitable 
                acres
                <all>  4% of the 40+ second growth is from unsuitable 
                acres
    For the Forest Service, the most significant limitation to an 
accelerated transition to second growth is the large number of acres of 
older second growth that is in restricted timber use status. If these 
restrictions were modified, there could be an acceleration to exclusive 
second growth harvesting.
    If H.R. 1408 were to pass today, under current standards and 
guidelines, the Forest Service would retain at least 223,000 acres of 
suitable second growth and 177,000 acres of unsuitable second growth 
that is available for stewardship and restoration. We believe the total 
pool of lands available to the Forest Service is more than sufficient 
to support log demand for its Transition Framework.
    We also believe that to achieve a successful transition to second 
growth, the Forest Service needs Sealaska to remain active in the 
timber industry in the Tongass, because Sealaska's operations support 
regional infrastructure (including roads and key contractors), 
development of markets (including second growth markets), and 
development of efficient and sustainable second growth harvesting 
techniques. In short, the likely success of the Forest Service's 
transition to second growth is significantly improved if Sealaska 
second growth operations are in close proximity to Forest Service 
second growth operations.
    Sealaska has 30 years of experience developing and distributing 
Southeast Alaska wood to new and existing markets around the world. 
Sealaska recently has pioneered second growth harvesting techniques in 
Southeast Alaska and is active in this market.
    This legislation, which moves Sealaska into some older second 
growth, ensures that Sealaska will engage as an early partner with the 
Forest Service in second growth market development, while continuing to 
provide local jobs and supporting the local economy.
    It is also important to note that regardless of whether Sealaska 
selects within the existing ANCSA withdrawal boxes or outside of those 
boxes, Sealaska must select its remaining entitlement lands from within 
the Tongass. In other words, by selecting Native entitlement lands, 
whether under existing law or the proposed legislation (H.R. 1408), 
Sealaska's land selections will incorporate lands suitable for timber 
development and may require the Forest Service to adjust land 
management plans. However, the ability to make minor management 
adjustments is built into the revised Tongass Land Management Plan.
Local Impact of H.R. 1408: Saving Jobs in Rural Southeast Alaska
    The Southeast Alaska region lost about 750 jobs in 2009, the 
largest drop in at least 35 years. In January 2011, the Alaska 
Department of Labor and Workforce Development reported the unemployment 
rate for the Prince of Wales--Outer Ketchikan census area at 
approximately 16.2 percent. In October 2007, the Alaska Department of 
Labor and Workforce Development projected population losses between 
1996 and 2030 for the Prince of Wales--Outer Ketchikan census area at 
56.6 percent.
    While jobs in Southeast Alaska are up over the last 30 years, many 
of those jobs can be attributed to industrial tourism, which creates 
seasonal jobs in urban centers and does not translate to population 
growth. In fact, the post-timber economy has not supported populations 
in traditional Native villages, where unemployment ranges above Great 
Depression levels and populations are shrinking rapidly.
    We consider this legislation to be the most important and immediate 
``economic stimulus package'' that Congress can implement for Southeast 
Alaska. Sealaska provides significant economic opportunities for our 
tribal member shareholders and for residents of all of Southeast Alaska 
through the development of our primary natural resource--timber. 
Sealaska and its subsidiaries and affiliates expended over $45 million 
in 2008 in Southeast Alaska. Over 350 businesses and organizations in 
16 Southeast communities benefit from spending resulting from Sealaska 
activities. We provide over 363 full and part-time jobs with a payroll 
of over $15 million. Including direct and indirect employment and 
payroll, Sealaska in 2008 supported 490 jobs and approximately $21 
million in payroll.
    We are proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and seven of our local communities to run a 
community firewood program. We contribute cedar logs for the carving of 
totems and cedar carving planks to schools and tribal organizations. We 
are collaborating with our village corporations and villages to develop 
hydroelectric projects. We do all of these collaborative activities 
because we are not a typical American corporation. We are a Native 
institution with a vested interest in our communities.
    Our shareholders are Alaska Natives. The profits we make from 
timber support causes that strengthen Native pride and awareness of who 
we are as Native people and where we came from, and further our 
contribution in a positive way to the cultural richness of American 
society. The proceeds from timber operations allow us to make 
substantial investments in cultural preservation, educational 
scholarships, and internships for our shareholders and shareholder 
descendants. Through these efforts we have seen a resurgence of Native 
pride, most noticeably in our youth. Our scholarships, internships and 
mentoring efforts have resulted in Native shareholder employment above 
80% in our corporate headquarters, and significant Native employment in 
our logging operations.
    ANCSA authorized the establishment of Native Corporations to 
receive and manage that land so that Native people would be empowered 
to meet their own cultural, social, and economic needs. H.R. 1408 is 
critically important to Sealaska, which is charged with meeting these 
goals in Southeast Alaska.
Glacier Bay National Park
    In 1971, Congress tasked Native Corporations with selecting and 
managing sacred sites on behalf of the Native community. Legislation 
introduced on Sealaska's behalf during the 110th Congress proposed the 
conveyance to Sealaska of a handful of sacred, cultural, traditional 
and historic sites in Glacier Bay National Park, based on precedent for 
such transfers to Indian Tribes in National Parks in the lower 48 
states. As a result of concerns expressed regarding these potential 
conveyances, Sealaska sought an adjustment to the legislation to 
provide merely for ``cooperative management'' of the sites.
    With the National Park Service continuing to express concern 
regarding the ``cooperative management'' language in the bill, 
Congressman Young agreed to help resolve the concerns, and further 
revised the Glacier Bay language to clarify that the cooperative 
management requirement applies only to Glacier Bay sacred sites 
identified in the bill, to avoid any misperception that such language 
could apply to the entire Park.
    Cooperative management agreements would ensure Native use and 
management of the handful of very significant sacred and cultural sites 
identified within Glacier Bay, regardless of future changes in Park 
management. This language does not propose to negate the existing 
Memorandum of Understanding between the Park and the Huna Indian 
Association (HIA), and there have been discussions about revising the 
language to address a few additional concerns of HIA. As with all 
elements of this legislation, Sealaska remains open to a continued 
dialogue on this matter.
Conservation Considerations
    We were disheartened last year when a handful of environmental 
groups disseminated blatant misinformation about this legislation. We 
think these groups must view this legislation as a part of a larger 
compromise between development and conservation, and by publishing 
statements like ``Stop the Corporate takeover of the Tongass'', these 
groups chose to ignore the Native equitable and other public benefits 
of this legislation. This only hurts our communities and the people who 
live there, including those who survive on jobs created by Sealaska.
    This legislation is fundamentally about the ancestral and 
traditional homeland of a people who have lived for 10,000 years in 
Southeast Alaska. For 145 years, people from across the western world 
have traveled to Southeast Alaska with an interest in the rich natural 
resources of the region--an area the size of Indiana. In the mid-1800s, 
Americans came to hunt for whales. In the late-1800s, gold miners 
arrived. In the first half of the Twentieth century, the fishing 
industry built traps at the river entrances, depleting salmon 
populations. In the 1950s and 1960s, two pulp mills signed contracts 
with the United States that gave the mills virtually unlimited access 
to Tongass timber. In the meantime, Natives from the late-1800's 
through the 1930's often were being moved from their traditional 
villages.
    Some conservation groups represent the latest influx of people with 
an idea about what best serves the public interest in the Tongass. In 
fairness, the conservation community writ large has long fought to 
preserve the Tongass for its wilderness and ecological values, and 
often I have appreciated the balance that the conservation community 
seeks for the forest.
    What I do not appreciate is environmentalism that does not 
recognize the human element--that people have to live in this forest. I 
do not accept environmentalism that does not recognize that the Tongass 
is a Native place. We welcome people to our homeland--but we do not 
appreciate the assault by some on our right to exist and subsist in the 
Tongass.
    There are groups that consistently agree with us that we should 
have our land, but wish to decide--to the smallest detail--where that 
land should be. We have been asked to place as much as two million 
acres of conservation on the back of our legislation as the price for 
selecting lands that make cultural and economic sense to our people. 
Native people have always been asked to go second. Let's not forget 
that H.R. 1408 addresses the existing land entitlement of the Native 
people of Southeast Alaska.
    In attempting to resolve Sealaska's unfortunate dilemma in an 
equitable manner, the Alaska Congressional delegation has been careful 
to draft legislation to be in alignment with the current 
Administration's stated objectives for the Tongass and other national 
forests.
    Moreover, while original withdrawal limitations make it difficult 
for Sealaska to meet its traditional, cultural, historic and--
certainly--economic needs, these original withdrawn lands are not 
without significant and important public interest value. For example, 
approximately 85 percent of those lands now withdrawn for Sealaska are 
classified by the Forest Service as inventoried roadless areas. A 
significant portion is Productive Old-Growth forest (some 112,000 
acres), with over half of that being Old Growth Habitat LUD as 
classified under the 2008 Amendment to the Tongass Land Use Management 
Plan. H.R. 1408 allows these roadless old growth lands to return to 
public ownership, to be managed as the federal government and general 
public sees fit.
    Some groups claim that ``the lands that Sealaska proposes to 
select...are located within watersheds that have extremely important 
public interest fishery and wildlife habitat values.'' They are correct 
in a general sense. We agree that all lands in our region are valuable; 
our federal lands and our Native lands should be managed responsibly. 
We acknowledge the need for conservation areas and conservation 
practices in the Tongass. This bill meets those goals.
    Sealaska remains fully committed to responsible management of the 
forestlands for their value as part of the larger forest ecosystem. At 
the core of Sealaska's land management ethic is the perpetuation of a 
sustainable, well-managed forest to produce timber and to maintain 
forest ecological functions. We have attached a 2-page summary of 
Sealaska's land and stewardship practices to this testimony.
Time is of the Essence
    Timing is critical to the success of the legislative proposal 
before you today. Without a legislative solution, we are faced with 
choosing between two scenarios that ultimately will result in dire 
public policy consequences for our region. If H.R. 1408 is stalled 
during the 112th Congress, either Sealaska will be forced to terminate 
all of its timber operations within approximately one year for lack of 
timber availability on existing land holdings, resulting in job losses 
in a region experiencing severe economic depression, or Sealaska must 
select lands that are currently available to it in existing withdrawal 
areas. If forced to select within the existing boxes, development will 
inevitably occur in the inventoried roadless areas available today to 
Sealaska.
Sealaska Recognizes the Importance of the Public Process
    The alternative selection pool identified in the Sealaska bill is a 
product of an exceptional public process, including three previous 
Congressional hearings, more than a dozen meetings held by Senator 
Murkowski's staff in Southeast communities, and hundreds of community 
meetings held by Sealaska.
    The Sealaska bill has the support of the full Alaska delegation and 
many residents, communities and tribes throughout Southeast Alaska and 
statewide:
        <bullet>  The legislation is supported by the National Congress 
        of American Indians, the Intertribal Timber Council, the Alaska 
        Federation of Natives, the ANCSA Regional Presidents & CEOs, 
        the Central Council of Tlingit and Haida Indian Tribes, and 
        numerous tribes throughout Southeast Alaska.
        <bullet>  The Alaska Forest Association--which works with and 
        represents Southeast Alaska's remaining timber mills--fully 
        supports the Sealaska legislation.
        <bullet>  The Sealaska bill represents a net gain to the U.S. 
        Forest Service of roadless and old growth timber in the Tongass 
        National Forest. The legislation is fundamentally aligned with 
        the goals of the Obama Administration.
    Some critics of this bill want to shut down this legislation 
because it might mean that Sealaska selects lands in ``their'' 
backyard, near ``their'' favorite spots. This is understandable. But 
every acre of the Tongass is precious to someone and we need somewhere 
to go to fulfill our entitlement. Sealaska has been careful to select 
lands that are part of the Forest Service's timber base. Sealaska has 
compromised and adjusted its legislation several times on the basis of 
community and even individual concerns.
Congressman Don Young has worked to Resolve Federal, State, and Local 
        Concerns
    To address federal, state and local community concerns, Congressman 
Young committed to reintroducing legislation that:
        <bullet>  drops lands proposed for conveyance to Sealaska on 
        northeastern Prince of Wales Island near Red Bay, and 
        incorporates new lands into the pool of lands that would be 
        available to Sealaska for Native selections--all new lands 
        identified in the legislation are to be added solely on the 
        basis of meetings with communities and other stakeholders in 
        Southeast Alaska;
        <bullet>  revises language that allows Native Corporations to 
        work with the Secretary of Agriculture under the Tribal Forest 
        Protection Act to address fire hazards and spruce bark beetle 
        infestations, and language that allows Native Corporations, as 
        owners of Indian cemetery sites and historical places in 
        Alaska, to work with the Secretary of the Interior to secure 
        support under the National Historic Preservation Act--our 
        revised bill language clarifies that these amendments do not 
        create Indian country in Alaska;
        <bullet>  clarifies that the conveyance of Native sacred sites 
        is subject to the criteria and procedures applicable to the 
        selection of sacred sites under ANCSA;
        <bullet>  amends the bill to protect local guide permits on 
        lands that would be conveyed to Sealaska;
        <bullet>  provides that the conveyances of smaller parcels 
        (also called Native future sites), which are subject to 
        significant development restrictions, are further subject to an 
        easement for public access across such lands in addition to 
        public access easements that would be granted under Section 
        17(b) of ANCSA;
        <bullet>  provides that Native sacred sites could be conveyed 
        subject to an easement for public access across such lands 
        where there is ``no reasonable alternative'' access, a 
        provision that also provides public access rights in addition 
        to the public easements that would be available under Section 
        17(b) of ANCSA;
        <bullet>  clarifies that any ``site improvement'' on any sacred 
        site selected by Sealaska (for example, construction of a 
        traditional longhouse or an access trail) must not be 
        inconsistent with management plans for adjacent public lands; 
        and
        <bullet>  provides that the BLM shall have additional time to 
        convey ANCSA lands to Sealaska.
Our Future in Southeast Alaska
    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. The Tongass is the heart and soul of our 
history and culture. We agree that areas of the region should be 
preserved in perpetuity, but we also believe that our people have a 
right to reasonably pursue economic opportunity so that we can continue 
to live here. H.R. 1408 represents a sincere and open effort to meet 
the interests of the Alaska Native community, regional communities, and 
the public at large.
    It is important for all of us who live in the Tongass, as well as 
those who value the Tongass from afar, to recognize that the Tlingit, 
Haida and Tsimshian are committed to maintaining both the natural 
ecology of the Tongass and the Tongass as our home. We therefore ask 
for a reasoned, open, and respectful process as we attempt to finalize 
the land entitlement promised to our community 40 years ago. We ask for 
your support for H.R. 1408.
    Gunalcheesh. Thank you.
    [GRAPHIC] [TIFF OMITTED] 66652.001
    
    .eps[GRAPHIC] [TIFF OMITTED] 66652.002
    

    .eps[NOTE: Additional attachments have been retained in the 
Committee's official files.]
                                 ______
                                 
    Mr. Denham. Thank you, Mr. Mallott. Mr. Claus.

  STATEMENT OF BOB CLAUS, FOREST PROGRAM DIRECTOR, SOUTHEAST 
           ALASKA CONSERVATION COUNCIL, CRAIG, ALASKA

    Mr. Claus. Thank you, Mr. Chairman. My name is Bob Claus, 
and I live in Craig, Alaska. I have a strong commitment to the 
people and places of Southeast Alaska. I served as an Alaskan 
State Trooper on Prince of Wales Island for 15 years, and I 
continue to work every day with the people on the island.
    I have spent many hours visiting with and listening to the 
people who live in the Native villages, fishing towns, and 
former logging camps, which will be most impacted by this bill.
    The lifestyle of rural Alaska is beyond the imagination of 
most Americans. We build and heat our houses with wood that we 
take from the forest. We eat deer from the woods, and we fish 
in the streams and oceans. We arrange our lives around the 
strength of the fish runs, the winter survival of deer, and the 
abundance of the berry harvest.
    People have lived like this in this place for thousands of 
years. People on the island are opposed to this proposal 
because of the changes that they fear. People are afraid that 
they will lose their ability to hunt along the North Prince of 
Wales road system.
    They are afraid that they will lose their ability to make a 
living from fishing if they lose Federal buffers for salmon 
streams. They are afraid that the transfer of control from the 
Forest Service to the Sealaska Corporation will mean a loss of 
local year around jobs, contributing to the decline of their 
towns' economies.
    They are afraid that the loss of protection for karst and 
cave lands will destroy unique geologic features, and adversely 
impact salmon streams. The cost of this bill outweighs the 
public benefit, and the people of Southeast Alaska know it.
    This is shown by the formal letters and resolutions from 
communities opposing this proposal. I recently heard a story 
about the history of salmon canneries in one of our small 
towns.
    A big industrial company came to the village, built a 
cannery, and set up fish traps. Local people fish in cans, and 
earned a laborer's wage. The fish traps decimated the fish 
runs. The big company pulled out, and what the people got in 
return was a few years of wages, a destroyed fish run, and a 
traditional culture in disarray.
    How does putting fish in cans until the fish are gone 
different than loading logs on to ships until the logs are 
gone? Fishing has changed since then, and the timber industry 
has to change, too.
    Community leaders from across the political spectrum are 
actively working toward a different vision for the future of 
Southeast Alaska, and we believe that an intact forest 
ecosystem supports the billion-dollar fishing industry, the 
billion-dollar tourism and recreation industry, and the 
traditional and customary economies practiced by local 
residents.
    We believe that the community scaled forest products work 
and energy projects are compatible with this economy. This bill 
with this emphasis on clear-cut logging for export is an attack 
on our vision of the future for Southeast Alaska.
    SEACC recognizes Southeast Alaska as a Native place, and 
supports Sealaska getting lands rightfully owed to them, but we 
question the balance of this particular bill. One way to 
measure fairness is through the resource value as measured by 
timber, existing infrastructure, potential for economic 
development, and habitat value.
    The amount and location of the land selection should 
reflect the true costs to the American people. Sealaska has 
chosen the most productive and easily accessible timber stands. 
The Native futures site selections represent the best sites in 
Southeast Alaska for tourism and energy related development.
    Some of those are in direct conflict with existing small 
businesses and community plans, and all of them block future 
investment by any other party. The potential selection of 
cultural sites creates conflicts within the Native community 
over who is the appropriate owner of cultural sites, and who 
decides whether a commercial use of those lands is appropriate, 
and whether these lands could be lost to creditors.
    This bill fails to find that balance that supports our true 
sustainable economy. Part of that balance will be to conserve 
lands to protect fisheries, habitat, and community traditional 
use areas.
    SEACC remains committed to a broad balanced solution that 
addresses the interests of the Sealaska Corporation, and 
respects Native culture, as well as the economic needs of all 
of the people of Southeast Alaska. We oppose this bill because 
it does not contribute to that solution.
    [The prepared statement of Mr. Claus follows:]

           Statement of Bob Claus, Forest Program Director, 
                 Southeast Alaska Conservation Council

    Mr. Chairman and members of this Subcommittee:
    My name is Bob Claus and I am a community organizer for SEACC based 
on Prince of Wales Island. Thank you for the opportunity to testify 
before you today and I respectfully request that my written testimony 
and accompanying materials be entered into the official record for this 
Subcommittee hearing.
    Founded in 1970, SEACC has members all across Southeast Alaska, 
from Craig on Prince of Wales Island to Yakutat. SEACC's individual 
members include commercial fishermen, Native Alaskans, small timber 
operators and value-added wood manufacturers, tourism and recreation 
business owners, hunters and guides, and Alaskans from all walks of 
life.
    SEACC is dedicated to preserving the integrity of Southeast 
Alaska's unsurpassed natural environment while providing for balanced, 
sustainable use of our region's resources. Southeast Alaska contains 
magnificent old-growth forests, outstanding fish and wildlife habitat, 
important ``customary and traditional'' or subsistence use areas, 
excellent water and air quality, unsurpassed outdoor recreation 
opportunities, world class scenery, internationally and nationally 
significant cave and karst resources, and provides a unique way of life 
for the hardy, independent people who choose to call it home.
    We were invited to testify here today because of our long 
involvement with this legislation. \1\ There was a hearing at the 
Subcommittee on Public Land and Forests yesterday across the Capital on 
the most recent Senate version of this same legislation, S. 730. Unlike 
the last session, however, the two bills are not identical.
    Unlike H.R. 1408, Senate Bill 730 does not offer hyperbole for fact 
like the supposed findings in section 2 of the House bill; \2\ encroach 
upon the federally-recognized tribe for the Hoonah Natives government-
to-government relationship with the National Park Service over their 
traditional homelands in Glacier Bay National Park; threaten as many 
small communities or valuable fish and wildlife habitat; or fail to see 
the value in conserving internationally significant karst and cave 
resources, primary fish producing watersheds, and lands recognized by 
local community leaders as important just the way they are. Senate Bill 
730 recognizes the need for stream buffers to protect salmon habitat, 
although including an ill-advised sunset clause. H.R. 1408 should 
include permanent stream buffers to protect fisheries.
    I want to be clear--the Senate bill is better than H.R. 1408, but 
that is little consolation to the communities and forest users most 
directly affected by this legislation. We hope the Chairman uses this 
opportunity to draft a bill that doesn't favor one interest or 
community at the expense of others.
    Community leaders from across the political and economic spectrum 
are actively working towards a different vision of the future for 
Southeast Alaska than that proposed in this bill. Our salmon forest 
supports the sustainable nearly $1 billion fishing industry, which 
employs nearly 10 times the number of workers as timber. Our fish, 
wildlife, and outdoor recreation opportunities support over a billion 
dollars in direct, indirect, and induced visitor spending in Southeast 
Alaska, and provide over 21 percent of the full and part time jobs in 
Southeast Alaska. \3\ The critical foundation of the region's economy 
is customary and traditional hunting, fishing and gathering; salmon is 
the primary source of food for rural Southeast Alaskans. We acknowledge 
the difficult times and economic desperation that our small communities 
are facing, but logging watersheds vital to food gathering make it even 
more difficult for them. \4\
    We believe that sustainable community-scaled forest products work 
and energy projects are compatible with this vision. This bill, with 
its emphasis on clearcut logging for export, conflicts with that vision 
of a bright future for Southeast Alaska.
Communities Placed in Conflict with One Another
    This legislative proposal is extremely controversial and divisive 
in Southeast Alaska's small communities.
    One of our proudest national heritages is the freedom that 
Americans enjoy to access and use our public lands, anyplace and 
anytime. The lands sought by Sealaska will curtail public access and 
use of public lands and resources. The uncertain scope of the permitted 
activities and location of the easements proposed in H.R. 1408 raise 
concerns, as does the authority given Sealaska to control access and 
use of the easements and adjacent lands.
    The small communities of Edna Bay, Naukati, Cape Pole, Hollis, 
Whale Pass, Kupreanof, Thorne Bay, Point Baker and Port Protection have 
written formal letters or resolutions opposing this bill, and these are 
the communities closest to the transfer areas. Other communities and 
organizations formally opposed prior versions of this legislation. 
Hundreds of island residents have signed petitions opposing the bill.
    Many residents of these communities closest to the lands threatened 
by H.R. 1408 question how they can continue their shared way of living 
if Sealaska takes their forest. Many wonder if the existing timber 
industry will be able to transition away from old-growth logging if 
Sealaska receives the oldest young-growth on the forest.
    Residents of the rural communities on Prince of Wales have long 
used all the lands proposed for selection by Sealaska on North Prince 
of Wales Island, Kosciusko and Tuxekan Islands for subsistence hunting, 
fishing, and gathering. Without the legal requirements for public 
oversight and participation provided these rural residents under Title 
VIII of the Alaska National Interest Lands Conservation Act on public 
lands, they will have no voice on how these ``private'' lands are 
managed by Sealaska nor will Sealaska be obligated to minimize impacts 
to subsistence resources and uses from its management.
    Residents of Hydaburg fought to safeguard lands surrounding Keete/
Nutkwa and Kassa Inlets and Mabel Bay. Sealaska has targeted these 
traditional lands for the short-term economic benefits associated with 
clearcut logging and round log export to Asian markets. The 1989 House-
passed version of the Tongass Timber Reform Act, H.R. 987, safeguarded 
these lands permanently by designating them part of the Nutkwa 
Wilderness. The final compromise legislation in 1990 ultimately left 
these lands unprotected. \5\ SEACC and others have consistently 
advocated for long-term protection for these lands ever since.
Out-Of-Withdrawal Selections for Economic Development Lands in H.R. 
        1408 Disproportionately Target the Most Ecologically Productive 
        Lands in Southeast Alaska.
    The pool of lands from which Sealaska is seeking for clearcut 
logging possess some of the highest biological values represented by 
salmon, deer, black bears, big-tree old-growth forest, and estuaries on 
the Tongass National Forest. \6\
    Analysis of earlier versions of this legislation demonstrate that 
the ecological productivity of the lands sought by Sealaska for 
intensive clearcut logging is proportionally higher in 2009, with 
nearly 47,000 (59.2%) of the acres inventoried as big tree forest. 
Recent maps prepared by the Forest Service also show the significant 
overlap between old growth reserves set aside Tongass-wide to safeguard 
wildlife populations and Sealaska's selections, particularly on the 
North Prince of Wales, Kosciusko, Tuxekan, Election Creek, Polk Inlet, 
and Keete parcels. Although Section 6(c) of H.R. 1408 tries to insulate 
the Forest Service from the effects to the Tongass Land Management Plan 
from conveying the selected lands to Sealaska, the U.S. Fish and 
Wildlife's decision not to list the goshawk and Alexander Archipelago 
wolf under the Endangered Species Act was premised on the adequacy of 
the Tongass Conservation Strategy adopted in the Tongass Plan. Given 
the extensive modification of that conservation strategy on Prince of 
Wales and surrounding islands that will result if this legislation is 
enacted, the Forest Service and Fish and Wildlife Service will face 
serious questions about the status of these old-growth dependent 
wildlife populations.
    A substantial majority of the lands targeted by Sealaska on North 
Prince of Wales, Kosciusko, and Tuxekan Islands contain world-class 
karst and cave resources. \7\ These resources are protected under 
federal law, and would lose that protection if turned over to Sealaska. 
Karst terrain occurs on water-soluble bedrock such as limestone, 
dolomite, or gypsum. It is characterized by underground water drainage, 
sinkholes, pits, and caves. These well-drained soils support some of 
the most majestic old-growth forest on the Tongass. Approximately 71% 
of the lands identified for conveyance by Sealaska are underlain by 
karst. The forest canopy protects the thin soils atop karst from 
eroding directly into the soluble rock below. Past and proposed 
clearcut logging on these fragile soils disrupt the natural hydrology, 
harm cave formations that hold information of thousands of years of 
climate change, and alter sediments that hold keys to understanding 
patterns of human migration into the Americas as well as other 
paleontological clues to our past. Eleven years ago, the Forest Service 
discovered human remains in On Your Knees cave on North Prince of Wales 
Island. DNA testing determined that these human remains were 10,300 
years old. The oldest human remains in Alaska have been found in this 
cave system, and it has not yet been fully explored or mapped. See 
Forest Service returns ancient human remains to Tlingit tribes, Juneau 
Empire (Oct. 21, 2007). \8\
Futures Sites
    The Native futures sites selections represent the best sites in all 
of Southeast Alaska for tourism and energy related development. Some 
are in direct conflict with existing small businesses and community 
plans, and all block future investment by any other party. Some sites, 
like Pegmatite Mountain, Spring Creek, and Blake Channel are actively 
opposed by local communities. \9\
Unfair to US Taxpayers
    Sealaska's proposed selections contain millions of dollars worth of 
public roads and facilities built at taxpayer expense, unlike the areas 
they are currently authorized to select. One way to measure fairness is 
through the resource value, as measured by timber, existing 
infrastructure, potential for economic development, and habitat values. 
The amount and location of land selections should reflect the true 
costs to the American public and not just the total number of acres. 
This should be a value for value exchange, not an acre for acre 
exchange.
    Thank you for the opportunity to provide these comments on the 
proposed legislation.

              Endnotes for SEACC's Testimony on H.R. 1408

\1\ By this reference, we incorporate testimony we gave the Committee 
        in 2007 on H.R. 3560 (available at http://seacc.org/files/
        FINAL%20SEACC%20H.R.%
        203560%20testimony%2011-14-07.pdf) and last spring on H.R. 2099 
        (available at http://seacc.org/files/
        SEACC%20Testimony%20%20on%20HR%202099%203-31-
        10%20LH%20%282%29.pdf) into the record for today's hearing, as 
        well as supporting documentation provided committee staff.
\2\ This problem is exemplified in section 3(5)(B) of H.R. 1408's 
        statement that the $7.5 million awarded by the Court of Claims 
        to the Tlingit-Haida Central Council (THCC) ``did not justify 
        the significant disparate treatment of Sealaska under the 
        Alaska Native Claims Settlement Act'' exemplifies our point. 
        Both the historical record of Alaska Native land claims and the 
        legislative record for the ANCSA reveal that the 1968 
        settlement was the sole reason Congress decided to treat 
        Southeast Alaska Natives differently from other Alaska Natives 
        in the ANCSA. See e.g., Section 13(d), H.R. 10367, 92nd 
        Congress, 1st Session, 117 Cong. Rec. 37,067 (1971).
\3\ McDowell Group, Economic Impact of Alaska's Visitor Industry, Table 
        9 at p. 20 (March 2010). This report is available at--http://
        www.dced.state.ak.us/ded/dev/pub/
        Visitor_Industry_Impacts_3_30.pdf.
\4\ As noted by experts at the Alaska Department of Labor: ``Living in 
        Alaska involves higher costs no matter where you live, but 
        living in rural Alaska increases those costs even more.'' 
        Alaska Economic Trends at 15 (May 2011) available at http://
        labor.state.ak.us/trends/may11.pdf
\5\ See House Committee on Interior and Insular Affairs, Amending 
        ANILCA to Designate Certain Lands in the Tongass National 
        Forest as Wilderness, and For Other Purposes, H.R. 987, 101st 
        Cong., 1st Sess., (1989), reprinted in House Report No. 101--
        84, Part I, 101st Cong., 1st Sess., (1989). As reported, the 
        House passed H.R. 987 by a vote of 356 to 60, with 15 not 
        voting. See 135 Cong. Rec. 3718 (daily ed. July 13, 
        1989)(designating approximately 52,654 acres as the Nutkwa 
        Wilderness). That fall, Congress enacted the Tongass Timber 
        Reform Act into law. See Pub. L. 101-626, 104 Stat. 4426 (Nov. 
        28, 1990)(designating approximately 28,118 acres as the Nutkwa 
        LUD II Management Area). The nearly 25,000 acre of lands 
        unprotected in the final legislation are the lands at risk in 
        H.R. 1408.
\6\ Schoen, John and Erin Dovichin, eds. 2007. The Coastal Forests and 
        Mountain Ecoregion of Southeastern Alaska and the Tongass 
        National Forest. Audubon Alaska and The Nature Conservancy, 715 
        L Street, Anchorage, Alaska. This complete report is available 
        online at: http://conserveonline.org/workspaces/akcfm. See also 
        Exhibit 3 to SEACC's Testimony on S.881 (Oct. 8, 2009)(a map 
        comparing Landscape Scale Density of Oldgrowth Forests 1950's--
        2005 on the southern portion of the Tongass National Forests 
        with the land pool proposed for selection by Sealaska) 
        available at http://seacc.org/files/SEACC%20Final%
        20Testimony%20for%2010-08-09%20Hrg%20on%20S881.pdf
\7\ See Exhibit 4 to SEACC's Testimony on S.881 (Oct. 8, 
        2009)(available at http://seacc.org/files/
        SEACC%20Final%20Testimony%20for%2010-08-
        09%20Hrg%20on%20S881.pdf
\8\ This story can be found on the web at http://www.juneauempire.com/
        stories/102107/loc_20071021021.shtml.
\9\ See e.g., http://m.juneauempire.com/local/2011-05-07/tenakee-
        springs-opposes-seal
        aska-and-ipec-geothermal-site-selection
                                 ______
                                 
    Mr. Denham. Thank you, Mr. Claus. Mr. Graham.

  STATEMENT OF OWEN GRAHAM, EXECUTIVE DIRECTOR, ALASKA FOREST 
                 ASSOCIATION, KETCHIKAN, ALASKA

    Mr. Graham. Thank you. And thanks for the opportunity to 
speak in support of this legislation. The shortage of timber 
supply in Southeast Alaska has led to severe hardship for many 
people.
    Congress has set aside about 10 million acres in the region 
as wilderness, national monuments, parks, legislated roadless 
areas. Those reserves, which include about two million acres of 
forestland, were permanently set aside largely to satisfy the 
demands of environmental groups.
    Even with all this land set aside in perpetuity, there is 
still ample forestland to support a viable timber industry. 
Unfortunately, we don't have access to most of that, that non-
set aside forestland.
    The non-Federal lands comprise only about 6 percent of the 
region, and although the State and the private landowners do a 
good job of managing their timberlands, their lands are 
insufficient to supply the minimum volume needed to keep our 
industry viable and sustainable.
    Sealaska is a good steward of the land. I have seen it with 
my own eyes, and I have worked with them for over 30 years. 
They do a good job of harvesting their timber, following the 
State practices, and they do a good job with the reforest 
station, and they do a lot of science studies.
    They protect their fishery values, and they are a good 
company, and a good organization. When Congress made their 
wilderness and roadless withdrawals, they promised to continue 
to supply roughly 12,000 acres of timber annually to support 
the timber industry and the economy in the region.
    But that promise has not been fulfilled. In 1990, when 
Congress enacted the Tongass Timber Reform Act, we had over 
3,000 direct jobs in our industry, but immediately after TTRA 
was passed, the supply of timber from the National Forests 
began to decline dramatically.
    At the same time, timber supplies from most of the small 
Native village lands also declined. The Federal lands are 
currently providing only about 1,000 acres of timber annually. 
That is less than 10 percent of the promised timber supply.
    And yet environmental groups still appeal and litigate 
nearly every timber sale that is prepared. Although both 
Sealaska and the State have continued to provide timber, they 
just manage a small amount of timberland in the region.
    And even without those supplies from the State and the 
private timberlands, our mills would be gone already. In fact, 
we are down to one medium-sized sawmill, and a handful of real 
small sawmills.
    Of the timber industry people who lost their jobs over the 
last 20 years, about two-thirds had to leave the region to find 
work. This created a great hardship, not just for them, but 
also for the communities that they left.
    Many of the people who were able to find work and remain 
living in the region are now facing potential layoffs again as 
Sealaska's timber supply dwindles. These people will not be 
able to find jobs a second time because there will be no jobs 
unless both Sealaska and the Forest Service are allowed to 
continue their timber operations.
    Passage of H.R. 1408 will provide Sealaska the opportunity 
to continue their operations and we hope that Congress will 
also support and encourage the Forest Service to restore the 
Federal timber supply that we were promised so long ago. Thank 
you.
    [The prepared statement of Mr. Graham follows:]

Statement of Owen Graham, Executive Director, Alaska Forest Association

    Mr. Chairman, Congressman Young, and members of the Committee. 
Thank you for the opportunity to submit testimony for the record of 
this important hearing on H.R. 1408.
    My name is Owen Graham. I am executive director of the Alaska 
Forest Association. The AFA is the statewide association representing 
companies engaged in forest practices including support companies. We 
have 115 members and represent timber companies, loggers, trucking and 
towing companies, suppliers, and other members who have a stake in the 
future of a vital and hopefully healthy timber economy in Alaska.
    AFA strongly supports the passage of H.R. 1408 without delay. 
Passage of this bill is critical to the future of our remaining 
industry. Alaska Native timber is in decline in part because ANCSA land 
entitlement has not been fulfilled, even though ANCSA was passed over 
three decades ago. The Native lands represent only about 3% of the land 
in Southeast Alaska, but Sealaska's timber operations, currently 
support about 40% of the forest industry employment in the region 
because of the inappropriate reductions in timber harvest from federal 
lands.
    Drastic reductions in the federal timber sale program since 1990, 
after the Tongass Timber Reform Act was enacted, have been disastrous 
for our industry and our communities. The federal lands comprise about 
94% of the total land in the region and, as a result of the dramatic 
decline in federal timber sales; our industry has declined over 90%. If 
Sealaska is unable to continue their forestry operation, we will not be 
able to maintain much of our industry support infrastructure--
transportation companies, fuel barges, equipment suppliers, etc.
    Even though the Forest Service has a timber plan in place which 
claims to provide up to 267 million board feet annually, the agency has 
only offered about 15 mmbf of new timber sales annually. Because the 
timber sale program on federal lands is so unreliable, it is critical 
that private timber be available to support our industry. In most 
states, there is a mix of federal, state, and private timber which 
provides more opportunity to compensate for periodic declines in the 
federal timber sale program. We do not have that diversity of land 
ownership in Southeast Alaska, but it is vitally needed. This 
legislation will move the region a little closer to balance.
    From today's struggles described above, AFA hopes our industry can 
be restored to a level closer to what we had in 1990.That is why the 
passage of this bill is so vital and so timely. This committee and 
Congress need to act immediately.
    Please do not be persuaded by those who claim the passage of this 
bill will threaten wildlife viability or plant diversity. This is 
simply not true. There are millions of acres under complete protection 
in the Tongass including nearly 7 million acres of wilderness or 
legislated LUD II areas where development is statutorily prohibited. 
These legislatively set-aside areas include about 2 million acres of 
commercial timberland. The Tongass Land Management Plan 
administratively sets aside more than 3 million additional acres of 
commercial timberland. The commercial lands that are the subject of 
this legislation total less than 85 thousand acres--less than 2% of the 
commercial timberlands in Southeast Alaska.
    Sealaska is a good steward for their lands. They comply with the 
State Forest Practices Act regulations and they put an effort into 
managing their young-growth timber for the future. In addition, their 
lands are managed to allow timber, wildlife and fish to all prosper on 
the same acres. I have seen this with my own eyes.
    Some of those who speak against this legislation are the same 
people that have used administrative appeals, litigation and political 
pressure to drive down the timber supply from federal lands.
    A number of small communities have expressed concerns about 
potential impacts on the timber supply for local processors. Further, 
these communities fear a loss of recreational and subsistence access to 
the lands that Sealaska has selected. Sealaska has addressed these 
concerns; land selections have been modified to avoid the most 
contentious areas and Sealaska has agreed to provide public access to 
their lands. Further, the Forest Service timber sale plans for these 
areas indicate no conflict over the next few years and the agency has 
ample opportunity to adjust the forest plan to account for potential 
future timber sale impacts. After all, the forest plan has about three 
million acres of commercial forestland held in reserve that could be 
put to use if needed.
    Fish streams, wildlife habitat and recreation opportunities are 
already well protected in this region; what is not assured is the 
future of our timber industry. We have lost 90% of our employment due 
primarily to a decline in the availability of timber from the federal 
lands in the region. We cannot afford to reduce the timber supply from 
private lands as well.
    Sealaska has agreed to provide access to their lands for both 
subsistence and recreational hunting and fishing and Sealaska's 
operations will provide continued jobs and other economic benefits to 
both regional and local communities.
    This bill does not finalize the total acres that Sealaska will 
receive under ANSCA, so we recommend that the committee instruct the 
BLM to work with Sealaska to negotiate the final entitlement.
    Thank you again. The AFA urges immediate passage of this bill to 
help keep our industry alive and our communities healthy.

                            REGIONAL IMPACTS

        <bullet>  Sealaska employment and its contractor employment 
        combined is the largest for-profit sector employer in Southeast 
        Alaska.
        <bullet>  Many Southeast communities, including Juneau, 
        experience some level of economic impact from Sealaska timber 
        harvest operations.
        <bullet>  In 2008 Sealaska Corporation, Sealaska Timber 
        Corporation and Sealaska Heritage Institute spend $45 million 
        in Southeast Alaska.
        <bullet>  Sealaska and its contractors directly employed 363 
        workers in 2008
        <bullet>  Including both direct and indirect employment, 
        Sealaska-related employment totaled nearly 490 workers and $21 
        million in payroll in 2008.
Summary
        <bullet>  The timber industry and the communities in Southeast 
        Alaska need the continued economic activity provided by 
        Sealaska's operations.
        <bullet>  The only impacts on the federal timber supply for 
        local sawmills in the next 5-years are two commercial thinning 
        projects proposed on Kosciusko Island (both of which have 
        questionable economic viability). Beyond the next 5-years, 
        there is a potential 2% impact, but that impact can easily be 
        avoided by minor schedule changes.
        <bullet>  We need to sustain all of our timber employment--both 
        from private and public lands--and there is more than adequate 
        timber available to do so. The maximum timber harvest rate over 
        the next 100-years would still leave about 90% of the existing 
        old-growth commercial timberlands untouched.
                                 ______
                                 
    Mr. Denham. Thank you, Mr. Graham. All witnesses and 
Members are reminded that they have five minutes, and we will 
go for a second round of questioning. The Chair now recognizes 
Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and I do appreciate you 
taking over for me, and a thank you to the witnesses, and I do 
apologize, but I did achieve my goal on the Defense Bill, and 
so I feel quite good about that.
    Byron, the question of public access to lands that Sealaska 
would acquire in the Prince of Wales Island has been raised by 
some of the residents, the local communities on that island.
    I have received letters that suggest that people who have 
lived there on these lands and used these lands for 30 years, 
and that Sealaska should avoid land selections near these 
communities, or how is that going to work?
    Mr. Mallott. Sealaska has never posted its lands, except in 
very specific instances for specific reasons, and this is over 
almost a 40 year period now, and we would not do so in the 
future.
    The legislation, and the discussions, and the agreements 
that Sealaska has reached with virtually all of the parties 
involved would make essentially unparalleled public access 
available through and on to Sealaska's lands, and Jaeleen may 
have a more specific answer if she might be given the 
opportunity, Mr. Chair.
    Mr. Young. Well, in fact, Byron, wouldn't it be only fair 
to say that the Forest Service could prohibit use of that land 
as it is supposedly Federal lands, and it remains in the Forest 
Service's hands, and they could keep people off that land, too. 
And you are not saying that is going to be done and under your 
jurisdiction, correct?
    Mr. Mallott. We are not saying that.
    Mr. Young. That is good, because the Forest Service, I know 
that they have restricted before and restricted uses for types 
of vehicles, et cetera, already. So I don't know why there are 
concerns.
    I get very concerned about those that say that this is 
their right. This is not their right, and I know that I have 
talked to people, and they say, well, we have been doing this 
all these years. It is on Federal land, and they have not been 
restricted before.
    So I commend the Sealaska people for saying, yes, there 
will be utilization on that land. No structures, but 
utilization and for recreational purposes. Byron, again, I 
introduced this bill in 2007, and it has been vetted throughout 
the region.
    I have made some modifications based on suggestions 
received, and there seems to be new criticisms every time we 
introduce the bill. Can you describe the negotiations in 
communities, and the work that you have done trying to get a 
solution?
    Mr. Mallott. Sealaska has had almost 200 meetings 
throughout the region with individuals, with groups, with 
communities. It has been involved in the Tongass Futures 
Roundtable process, which has all of the interests in the 
Tongass National Forest at the table.
    The sacred sites, particularly the future sites, have been 
modified over the course of three Congresses in which this bill 
has now been introduced, and we continue to this day to discuss 
and negotiate issues that others have a concern with.
    We feel that we have been fully responsive, fully 
transparent, and we are at a point where we are not sure how 
much more that in the interests of our tribal members, trial 
member shareholders, that we can give.
    Mr. Young. Well, again, I have watched this process, and I 
am deeply disturbed by those that keep saying that something is 
wrong with the bill after you negotiate with them, and my goal, 
Mr. Chairman, is to move this legislation as soon as possible.
    You also said that this legislation is the most important 
economic stimulus package that Congress could implement for 
Southeast Alaska. We keep talking about jobs. What is the 
estimated jobs if this thing goes forth for that area?
    Mr. Mallott. At the very minimum, there would be hundreds 
of jobs. The opportunity to essentially reconstitute the core 
of a sustainable timber industry is what we are talking about. 
If this bill is not passed, and Sealaska does not gain access 
to lands that it is entitled to, both for timber harvests and 
for other purposes--and I emphasize the other purposes. They 
are many, and they have to do with our existence in the 
forests--it is very likely that the timber industry will go 
away.
    And whether it will ever be reconstituted is problematic. I 
believe that even the United States Forest Service recognizes 
that, and they are I think anxious that somehow the issues be 
resolved so that we can work together to build an industry that 
is sustainable over time.
    Mr. Young. Thank you, Byron, and my time is up, and I will 
come back for a second round of questions.
    Mr. Denham. Thank you, Mr. Young. Mr. Kildee.
    Mr. Kildee. Mr. Mallott, you talked about reforestation. 
Are there plans when trees are harvested? I come from Michigan, 
and my dad's first job was as a lumberjack, and in 1919, the 
last load of virgin timber in the lower peninsula of Michigan 
was hauled into Trevor City, Michigan.
    And they didn't think about reforestation. I am pleased 
that you are aware of the fact that reforestation is a very 
important element of forestry, of the timber industry. Back in 
1935, Franklin D. Roosevelt saw that, and saw what had happened 
in Michigan, and most of the white pine built most of the 
houses in Chicago.
    And we planted trees in 1935 and 1936, and I was about five 
years old then, and those trees now are mature trees, and 
probably not as big as some of the huge trees that were 
harvested originally.
    Are you talking with the USDA about reforestation plans if 
you get access to more of this area where you can do forestry?
    Mr. Mallott. Yes, Congressman. Sealaska has an active 
reforestation and silvicultural program underway on our current 
lands. We spend multimillions on reforestation on steep slopes, 
for example.
    We live in a very wet climate, and dealing with slopping 
lands is very much an issue. we have relationships with several 
western universities that have specific programs that provide 
both advice and on the ground direction involved in 
reforestation and the full range of silvicultural practices.
    And we know, for example, that we can both from an economic 
perspective, but again from a multi-use perspective maximize 
both the availability and the diversity of second growth 
through very active silvicultural practices, and we are 
committed to that, and we are engaged in it today at a very 
high level.
    Mr. Kildee. All right. I would encourage you to continue 
that. I am not sure what will finally happen to this bill. I 
know that Mr. Young is really determined and has been pushing 
this for a long time, and I think we can do certain things that 
will help reach your goals, while at the same time preserving 
those things that maybe should not be touched, right?
    And then along with reforestation, perhaps we can put 
something together, but I know what reforestation has done to 
Michigan. It has helped a great deal, and we should have done 
much more.
    But I think that is something that we did not think of from 
1919 to 1935, and it took Franklin Roosevelt to get the idea of 
planting trees about that high with the Civilian Conservation 
Corps, and young men out there planting those trees.
    But I think that we have to do it in a more scientific 
manner than how we did it in 1935 in Michigan, but I encourage 
you to stay involved in that.
    Mr. Mallott. We fully agree.
    Mr. Kildee. Thank you.
    Mr. Denham. Thank you, Mr. Kildee. Mr. Claus, in your 
testimony, very dramatic testimony, you mentioned that there 
could be a point in time when there are no more logs.
    Do you really think that there could be a point in time, 
and is there any type of plan out there to harvest everything?
    Mr. Claus. I don't know. I don't believe there is a plan to 
harvest everything. I think that would be an exaggeration. What 
I do believe----
    Mr. Denham. We hear a lot of exaggerations here in this 
House. So, I just wanted to confirm that.
    Mr. Claus. Well, I do think that there is a limited amount 
of old growth timber. There is a limited amount of the kind of 
timber that does support our salmon fisheries, and that does 
support our habitat for endangered species, like the wolf, and 
the deer that people eat.
    And that is in limited supply, especially in the lower 
elevations, and where things are easily accessible. There is a 
limit to the amount of old growth timber that can be taken off 
the Tongass National Forest.
    Mr. Denham. And I agree. And would there also be a limit on 
how much too much growth would be, and where it actually leaves 
a community in jeopardy? In my district, we have a lot of 
mountainous areas, and at a certain point in my district, when 
you get too much growth, my communities become very concerned.
    And when we have forest fires that not only destroys the 
forest, but also destroys the homes and the towns in that area. 
Is there a point in your estimation where you have too much 
growth?
    Mr. Claus. In Southeast Alaska, we don't face the kind of 
fire danger that is faced in many other forests across the 
country.
    Mr. Denham. So you can never have too much growth there?
    Mr. Claus. I don't believe so. No, sir.
    Mr. Denham. And since 1990 do you know how many timber 
sales Sealaska or SEACC has gone on record to support?
    Mr. Claus. Have gone on record to support?
    Mr. Denham. Yes.
    Mr. Claus. I don't know. I don't that.
    Mr. Denham. You don't know, or is there a number? Have you 
supported any plans?
    Mr. Claus. Well, what we have done is that we have been 
working with the Forest Service in a different way in the last 
five or six years in a collaborative way to try to make the 
timber sales more realistic from our point of view to avoid the 
kind of litigation, and the things that have gone on in the 
past, and I think we have been successful at that.
    Mr. Denham. So you have been successful in working with the 
Forest Service, and you have supported the plans that the 
Forest Service has put out?
    Mr. Claus. Yes.
    Mr. Denham. And you have gone on record to support that?
    Mr. Claus. I don't know that. We have worked with them, on 
the Sandy Creek Project, and----
    Mr. Denham. I am just asking how many times you have gone 
on the record to support the Forest Service?
    Mr. Claus. The Central----
    Mr. Denham. It sounds like you have worked with a lot of 
different folks, and a lot of different agencies.
    Mr. Claus. Yes.
    Mr. Denham. I just want you to go on record and tell me 
which ones you have supported, and if there has been a plan out 
there that you have supported, and if you could provide that to 
us for the record?
    Mr. Claus. The most recent one is the Central Cooper sale, 
and that is ongoing, and we can provide more details to you at 
a later time. I don't have that in front of me.
    Mr. Denham. Thank you. And it is my understanding that you 
are not prepared to support Mr. Young's bill at this time. The 
Senate version, as I understand, does not go quite as far as 
Mr. Young's bill. Do you support that version?
    Mr. Claus. We do not support the Senate version, but it is 
considerably closer, and I think that with further work with 
the Sealaska Corporation and other entities that might be 
closer to something that we could accept than this bill.
    Mr. Denham. Are you in any type of discussions, or are 
there pieces of that bill that you are offering your concern on 
issues?
    Mr. Claus. I am sorry, sir, but I didn't understand that.
    Mr. Denham. Is there anything specifically in that bill 
that you are looking to change so that you can gain your 
support?
    Mr. Claus. We think that there ought to be more 
conservation added to the bill to balance off the timberlands 
that Sealaska has and that we have concerns about. Certain of 
the future sites, yes, sir. So those things we would be happy 
to discuss in detail.
    Mr. Denham. Thank you. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Mr. Claus, I don't 
know anything about your entity, OK? So you tell me what the 
Southeast Alaska Conservation Council is, and also what your 
position as Forest Program Director entails?
    Mr. Claus. Yes, Ma'am. The Southeast Alaska Conservation 
Council, or SEACC, is a 40-year-old organization, and 41 years 
old this year. We have been involved in timber policy on the 
Tongass since then.
    We are a group of members of approximately 1500 members, 
most of them Alaskans, most of them individual people. We have 
a small staff of about 10. My job as the Forest Program 
Director is to help advise on policy to our board of directors.
    And I have a small staff right now of myself and two others 
who do community organizing work in the communities, and mostly 
in Wrangell right now, and Ketchikan, which are our focuses.
    Ms. Hanabusa. So it just happens that it is about 40 years 
old? Did its creation coincide with the Alaska Native Claims 
Settlement Act?
    Mr. Claus. I don't think so. It was a coincidence that the 
land issues at that time were the big issue of the day, and 
SEACC was formed at the same time, yes.
    Ms. Hanabusa. Has SEACC been active in all of the 
discussions on the Native Alaskan Settlement Act? In other 
words, when other entities, or other of the 12 entities have 
actually withdrawn lands, have you participated in the process 
like you are doing here today?
    Mr. Claus. Our focus is on forest issues in Southeast 
Alaska and around the Tongass National Forest, and the 
intersection of the Alaska Native Claims Settlement Act with 
that is not a direct one. We have not. So, no, we have not been 
outside of the region working with the Claims Act.
    Ms. Hanabusa. So anything regarding the Tongass, in that 
area, you have been participating as a voice in terms of how 
the lands are being withdrawn. Would that be a correct 
statement?
    Mr. Claus. Yes, Ma'am.
    Ms. Hanabusa. You said something in your testimony that I 
found a bit troubling. You mentioned the cultural sites, and as 
I stated earlier, issues regarding Native rights, and 
especially their cultural practices, are very dear to me.
    You said that you didn't know who really owned those sites, 
and who had a right to those sites. Do you remember that part 
of your testimony earlier?
    Mr. Claus. Yes.
    Ms. Hanabusa. Could you tell me what you meant by that?
    Mr. Claus. Yes, and what my concern is that I hear from 
Native people is that they don't know that a corporation like 
Sealaska would be the best carrier, the best owner, of cultural 
sites that they believe are attached to their clans.
    And I don't speak for them. I was saying what I hear are 
some of the concerns from the Native community, and that is as 
much as I should probably say about that.
    Ms. Hanabusa. But your testimony was that you didn't 
believe it, and so you are saying that it is not you, per se, 
but it is the Native peoples that you spoke to that are saying 
that?
    Mr. Claus. I am sorry if I misspoke. My concern is that 
there is a conflict inside the Native community about how 
management of the cultural sites should go forward, and I think 
that needs to be resolved by the Native people, and not by me.
    Ms. Hanabusa. Do you consider yourself a Native person?
    Mr. Claus. I do not.
    Ms. Hanabusa. So, Mr. Mallott, could you tell me what you 
consider to be these cultural sites that Mr. Claus has 
difficulties explaining why he made that statement, other than 
some Native people said to him that they think that there is an 
issue regarding whether Sealaska should do it?
    Are you very clear in your own mine, Mr. Mallott, as to 
what are those Native cultural sites?
    Mr. Mallott. Very, very, very vividly clear. They are 
sacred sites that we have an incredibly long historical, and 
cultural, and traditional attachment to, and we want to protect 
into time immemorial.
    And a for profit corporation is not really what Sealaska 
is. We represent tribal people, Native people, and protecting 
those sacred sites are among our very highest priorities. I 
would like to ask if I could for Jaeleen to comment. Jaeleen is 
Sealaska's General Counsel. She is also a tribal member 
shareholder, and knows this issue intimately.
    Ms. Hanabusa. I am sorry, but you are out of time, but Mr. 
Chair.
    Mr. Denham. I am happy to provide an extra minute.
    Ms. Hanabusa. You will have a minute. Thank you very much. 
Please proceed.
    Ms. Araujo. Thank you, Congresswoman. I just want to add 
that Alaska as you know was treated very differently in terms 
of Native land claims. Alaska Native Corporations are the only 
ones with an entitlement to Native lands.
    Our tribes currently don't have that right, and so if our 
cultural properties are going to go into Native ownership, it 
will have to be through our corporations. We are the only ones 
in Southeast, in terms of a Native institution, that have a 
remaining entitlement, and so we would like to use some of that 
to get some of our Native cultural properties back into Native 
ownership.
    We have the support of many of our tribes, and our 
intention with these cultural properties, and we already have 
draft MOUs in progress with the tribes, and to work with our 
tribes to manage these properties in perpetuity in a way that 
is appropriate for our local tribes, and our local clans.
    But we are the only ones with the Native land entitlements, 
and so we would like to use that on behalf of our tribes, and 
because all of our shareholders are tribal member shareholders.
    Ms. Hanabusa. Thank you, and as Mr. Mallott said, 10,000 
years in the past, and 10,000 years in the future. Thank you 
very much. Thank you, Mr. Chair.
    Mr. Denham. Thank you. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Owen, you have been 
listening to the testimony. How many acres are in the Tongass?
    Mr. Graham. Seventeen million.
    Mr. Young. Seventeen million. And what are we talking about 
in this bill?
    Mr. Graham. Oh, 80,000 roughly.
    Mr. Young. So, 80,000 and 17 million, and Mr. Claus says 
that the world is coming to an end, and there is not going to 
be any more timber.
    Mr. Graham. Yes.
    Mr. Young. What happened to the timber industry? You have 
been in it for 40 years. How has it changed in the Southeast?
    Mr. Graham. Well, we have lost 90 percent of our 
employment. We have lost most of our mills. We had two large 
pulp mills, and three large sawmills, and a lot of medium-sized 
mills.
    We have one medium-sized mill left, and all the rest of it 
is gone, and the people are gone. A few of them are working for 
Sealaska, and we are trying to hang on to those jobs.
    Mr. Young. Well, I am interested, because Mr. Sherman 
mentioned that the Forest Service is supposed to supply under 
the present Tongass Land Management Plan, I think, 267 million 
board feet annually?
    Mr. Graham. Yes.
    Mr. Young. And how much do they usually offer?
    Mr. Graham. Over the last 10 years, new timber sales have 
been less, way less, than 20 million board feet per year, way 
less than 10 percent.
    Mr. Young. Less than 10 percent? Mr. Chairman, I have to 
say that as an example, we are talking about 80,000 acres of 
land, and the Forest Service is supposed to guarantee 267,000 
acres of land, and Mr. Claus, how many--and again I go back to 
the Chairman's question. How many sales have you ever 
supported? One?
    Mr. Claus. That is the most recent one that I recall. I 
don't know about others.
    Mr. Young. Well, with all due respect, but I have been in 
this business a long time, and you have never supported a sale. 
Even this one, you are not really happy with it that we do 
support if. I have been here a long time, and I have watched 
your organization destroy an industry.
    We passed the Tongass National Forest Plan, and we were 
told by your group, Peace In the Valley, we are going to have 
small sawmills, and we are going to support you. You have never 
supported a thing. You want to kill the industry, and you have 
tried to kill us, and you have done a good job of doing it.
    And isn't it true that if we don't get this bill passed, is 
there any chance for any--Sealaska or any other industry in 
Southeast Alaska, that will work?
    Mr. Graham. Well, you know, Sealaska is the anchor for our 
industry, and we are just struggling to hang on right now. If 
we lose Sealaska, we will lose 40 percent of what we have left, 
and our health insurance program would collapse. I think our 
pension program would collapse.
    I think that a lot of our infrastructure, towing, and 
suppliers, would collapse. I think that it is extremely likely 
that it would all just crumble apart.
    Mr. Young. Byron, I will go back to you again. You are 
picking lands that have mostly been logged already, correct?
    Mr. Mallott. Yes.
    Mr. Young. And there is a road structure in, right?
    Mr. Mallott. Yes.
    Mr. Young. So we are not doing anything really new. How 
would that--how is the comment that it will affect the fishing 
industry when it has already been logged? How does that jive?
    Mr. Mallott. It doesn't. We are among the strongest 
supporters and local participants in the Southeast Fishing 
industry.
    Mr. Young. So you are a fisherman?
    Mr. Mallott. Yes, salmon, and halibut, and other species, 
and we would be the last to try to be involved in any practices 
that would destroy or inhibit salmon production in any stream 
in the Southeast.
    The move to second growth quite frankly was an effort to 
continue to move away from any kind of potential impact on 
other resource values within the forest, while still allowing a 
sustainable timber harvest.
    That is all that I can say. We are absolutely committed to 
sustaining all fisheries and the value of all aquatic resources 
in the Tongass National Forest.
    Mr. Young. Thank you, Byron. Mr. Claus, I want you to 
submit to the Committee the total number of appeals and 
lawsuits that your organization has been a party to since 1990 
in the Tongass. I expect that information as soon as possible, 
because I don't think you have it, or you would have said that 
before.
    Mr. Claus. I don't have that with me.
    Mr. Young. Well, I need that. I want to show you what you 
have done over these years, and how you have used the legal 
system, and how you have destroyed an economy, and how you are 
trying now to destroy the Native people.
    And I got sort of a kick from the Madam from Hawaii. He has 
heard Natives do it. We have two of the Native leaders right 
here, and we have one more in the back of the room.
    These are the leaders, and I get concerned when a white guy 
starts talking about what the Natives are saying, and I will be 
right up front with you about that. The Native leaders are 
elected, and they are chosen, and they are the spokesman.
    And sacred sites to me is a crucial issue, and the 
selection of 80,000 acres, Mr. Chairman, out of 17 million 
acres. I remember going to--and by the way, all these 
communities that Mr. Claus says oppose this were logging camps.
    Now we have some retirees sitting there, and government 
workers, and people who have it made living on Federal land, 
and getting a paycheck, and trying to take it away from what I 
call the original owners of the land.
    Now that is the injustice, and in this Committee, there is 
going to be justice served for my American Indians and my 
Alaska Natives, and no outside organization paid for by some 
wealthy person out of San Francisco is going to interfere with 
that, because that is wrong. It is not justice. Thank you, Mr. 
Chairman.
    Mr. Denham. Thank you, Mr. Young. Any more questions? I 
have one final question. Mr. Mallott, Sealaska has been waiting 
for nearly 40 years to gain its entitlement of land following 
passage of the Alaska Native Claims Settlement Act.
    I understand that some folks argue that it is the 
corporation's own fault for accepting a 1996 amendment to that 
Act that caused Sealaska to select inside the 10 selection 
areas surrounding Native villages in Southeast Alaska, and that 
Sealaska delayed gaining lands inside the box several years ago 
by asking BLM to defer completing your land selections there.
    In your written testimony, you touched on this, but could 
you explain in greater detail the history of how you ended up 
with the land conveyance choices that you face under current 
law, and what happened in 1976?
    Mr. Mallott. Sealaska was unique among the ANCSA 
corporations in having its land selection opportunities clearly 
limited to within the specific townships surrounding the Native 
villages within the region.
    We were impacted at the time by the two long term pulp 
contracts which supplied timber to the Ketchikan and Sitka 
mills. They were at the time the only harvests taking place 
within the Tongass.
    The available timber was large and the opportunity or the 
ability within the framework of those contracts for another 
entity, even the owners of the land, the Native corporations, 
to make selections was severely limited.
    It was not our doing or our choice to limit in any way the 
opportunity for us to select lands that would give us the 
opportunity and give us a sense of justice fulfilled in any of 
our practices, and in any of our Acts.
    And any decisions that Sealaska took were in the framework 
of circumstances within which we had no control, and were given 
choices that we had to accept or essentially give up 
opportunities that were available to us.
    The choices that were made and where we stood at the time 
reminds me of the movie Blazing Saddles, where the black 
sheriff holds a gun to his own head, and says that you are 
going to lose the only black sheriff you have ever had, and it 
is just that crazy, Mr. Chairman, for anyone to accuse the 
Native community and Sealaska of making choices that would 
diminish either its opportunity or put it in a position where 
it could not realize the selection and the utilization of lands 
that otherwise might be available to them. It is ludicrous.
    Mr. Denham. Thank you, Mr. Mallott, and a thank you to all 
of our witnesses for your valuable testimony and patience. 
Members of the Subcommittee may have additional questions for 
the witnesses, and we ask you to respond to these in writing.
    The hearing record will be open for 10 days to receive 
those responses. If there is no further business, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    The following submissions for the record have been retained 
in the Committee's official files:
        <bullet>  Edna Bay Community, Statement submitted for 
        the record on H.R. 1408
        <bullet>  Moll, Chohla, Spokesperson, Alliance for 
        Access to Sitka's Streams and Forests, Statement 
        submitted for the record
        <bullet>  Poelstra, Myla, Representing Nine Alaska 
        Towns-Thorne Bay, Cape Pole, Hollis, Naukati, Whale 
        Pass, Kupreanof, Port Protection, Edna Bay, Point 
        Baker, Statement submitted for the record on S. 730
        <bullet>  Regelin, Wayne, President, Territorial 
        Sportsmen, Statement submitted for the record
        <bullet>  Southeast Alaska Conservation Council, Craig, 
        Alaska, Supplemental testimony and attachments 
        submitted for the record
                                ------                                

    [A letter submitted for the record by lodge owners, guides 
and outfitters, sporting goods companies, hunting and fishing 
groups, and non-government fish and wildlife conservation 
organizations follows:]

June 10, 2011

Senate Committee on Energy and Natural Resources
House Committee on Natural Resources

RE: S. 730 and H.R. 1408

Dear Committee Members,

    The undersigned lodge owners, guides and outfitters, sporting goods 
companies, hunting & fishing groups, and non-government fish and 
wildlife conservation organizations from Alaska and across the country 
are writing to express our opposition to the Southeast Alaska Native 
Land Entitlement Finalization and Jobs Protection Act (S. 730 and H.R. 
1408, although the bills are far from identical).
    We do not dispute the fact that Sealaska has legitimate claim to 
acreage on the Tongass. However, the locations for selection were 
clearly defined in the Alaska Native Claims Settlement Act (ANCSA) of 
1971. Now, almost 40 years later, Sealaska is trying to change the 
rules by picking high-value public lands outside these defined 
selection areas. Sealaska has had the opportunity to select from these 
areas for a number of years and absolutely no legislation is required 
for the settlement of their claims.
    Sealaska's land selections outlined in S. 730 and H.R. 1408 include 
many of the best hunting, fishing, subsistence, and outfitter/guide use 
areas on the Tongass. The sporting community has objected to prior 
versions of this legislation because of concerns over threats to fish 
and wildlife habitat from increased timber harvest, limits to public 
access, increased commercial development, and displacement of existing 
businesses and operators. Given these concerns have not been adequately 
addressed in the current legislation, and there is no legal 
justification for Sealaska to make selections outside the ANCSA areas, 
we urge you to oppose S. 730 and H.R. 1408.
    Thank you for your continued support for fish and wildlife 
conservation on America's public lands.

Best regards,

National Groups (7)

American Fly Fishing Trade Association
Randi Swisher
President
Westminster, CO

Berkley Conservation Institute/Pure Fishing
Jim Martin
Conservation Director
Mulino, OR

The Campfire Club of America (est. 1897)
Leonard J. Vallender
Chair, Committee for Conservation of Forests and Wildlife
Chappaqua, NY

Federation of Fly Fishers
Philip Greenlee
Chairman of the Board/President
Livingston, MT

Recycled Fish
Teeg Stouffer
Executive Director
Nebraska City, NE

Salmon and Steelhead Conservation Society
James Wilcox
Secretary and Treasurer
Olympia, WA

Wildlife Forever
Douglas H. Grann
President and Chief Executive Officer
Minneapolis, MN

Alaska (7) 

Alaska Bear Guides
Scott Newman, Master Guide
Owner/Operator
Petersburg, AK

Brightwater Alaska, Inc.
Charles R. Ash
President
Anchorage, AK

Copper River Lodge
Pat Vermillion
Owner
Iliamna, AK

Painter Creek Lodge
Jon Kent
President
Anchorage, AK

Pioneer Outfitters
Terry Overly, Master Guide
Owner/Operator
Tok, AK

Royal Coachman Lodge
Pat Vermillion
Owner
Dillingham, AK

Togiak River Lodge
Larry Lund
Owner/Managing Partner
Togiak, AK

Arizona (2) 

Arizona Flycasters
L. Gary Stinson
Conservation Chair
Phoenix, AZ

Arizona Wildlife Federation
Tom Mackin
President
Mesa, AZ

California (7) 

California Division (Izaak Walton League of America)
Peter Hillebrecht
President
Orange, CA

El Dorado Chapter (Trout Unlimited)
Ron Zigelhofer
President
Placerville, CA

Golden West Women Flyfishers
Cindy Charles
Conservation Chair
San Francisco, CA

Northern California/Nevada Council
(Fed. of Fly Fishers)
Anne-Marie Bakker
President
Sonoma, CA

Okuma Fishing Tackle Co.
Douglas Lasko
President
Ontario, CA

Santa Barbara Flyfishers
Lew Riffle
Conservation Chair
Santa Barbara, CA

Steelhead Flyfisher
Jeff Bright
Owner
San Francisco, CA

Illinois (1) 

Elliott Donnelly Chapter (Trout Unlimited)
Grant Brown
President
Chicago, IL

Iowa (1) 

Hunter Companies
Hunter Parks
President
Cedar Rapids, IA

Maryland (1) 

Waterwisp Flies
Jim Greene
President & CEO
Chevy Chase, MD

Minnesota (2) 

Bob Mitchell's Fly Shop
Michael Alwin
Proprietor
Lake Elmo, MN

Great Lakes Fly Shop
John Fehnel
Owner
Duluth, MN

Montana (6) 

Big Sky Inflatables, LLC
Richard Stuber
Owner
Stevensville, MT

Fishing with Larry
Guy Schoenborn
President
Columbus, MT

Mystery Ranch Backpacks
Mark Seacat
Marketing Director
Bozeman, MT

Sweetwater Travel
Pat Vermillion
Owner
Livingston, MT

Triple-M-Outfitters
Mark Faroni
Owner/Outfitter
Dixon, MT

Yellow Dog Flyfishing Adventures
Jim Klug and Ian Sinclaire Davis
Partners
Bozeman, MT

Nebraska (1) 

HuntingLife.com
Kevin Paulson
Founder and CEO
Lincoln, NE

Oregon (2) 

Catch Magazine
Brian O'Keefe
Owner
Sisters, OR

Fly Water Travel
Ken Morrish
Co-Owner
Ashland, OR

Togiak River Lodge
Larry Lund
Owner/Managing Partner
Forest Grove, OR

Pennsylvania (3) 

Arrowhead Chapter (Trout Unlimited)
Jerry Potocnak
President
Sarver, PA

Chestnut Ridge Chapter (Trout Unlimited)
Scott Hoffman
Treasurer
Uniontown, PA

Pennsylvania Fly Fishing Company
Glenn Burgess
Partner
Boiling Springs, PA

Washington (2) 

Steelhead Committee (Fed. of Fly Fishers)
William Atlas
Chair
Seattle, WA

SunDog LLC
Dominick Villella
Owner
Seattle, WA

Wisconsin (1) 

Aldo Leupold Chapter (Trout Unlimited)
Michael Barniskis
President
Beaver Dam, WI

International (1) 

European Fishing Tackle Trade Association
Jean Claude Bel
Chief Executive Officer
London, United Kingdom
                                 ______
                                 

    [A letter submitted for the record by Mike Daulton, Vice 
President of Government Relations, National Audubon Society, 
follows:]

May 25, 2011

The Honorable Don Young
Chairman, Subcommittee on Indian and Alaska Native
U.S. House of Representatives
1324 Longworth House Office Building
Washington, D.C. 20515

Re: Testimony on H.R. 1408

Dear Chairman Young:

    On May 26, 2011, the House Subcommittee on Indian and Alaska Native 
Affairs will hold a hearing on H.R. 1408, the ``Southeast Alaska Native 
Land Entitlement Finalization and Jobs Protection Act.'' Please accept 
this letter as testimony for the record on behalf of the National 
Audubon Society.
    The National Audubon Society opposes H.R. 1408 as the legislation 
is presently proposed.
    H.R. 1408 is a controversial proposal that would allow the Sealaska 
Corporation to select and take title to valuable lands within the 
Tongass National Forest that are currently open to the public for 
fishing, hunting, and recreation. Much of the land sought by Sealaska 
would be subject to intensive clear-cut logging. Although a relatively 
small total percentage of the forest acreage has been logged on the 
Tongass National Forest, half or more of the large-tree old growth 
forest has already been logged in Southeast Alaska. The very largest 
trees--the individual ``giants'' greater than 10 feet in diameter--were 
largely eliminated in the last century. Forest stand diversity in the 
Tongass National Forest has already been substantially altered due to 
past logging.
    The National Audubon Society fully respects the right of the 
Sealaska Corporation to obtain its full land entitlement as provided 
for by law under the Alaska Native Claims Settlement Act (ANCSA) and 
supports the prompt conveyance by the Bureau of Land Management (BLM) 
of the lands already selected by Sealaska Corporation. H.R. 1408 is not 
needed to satisfy Sealaska Corporation's entitlement and would convey 
public lands in the Tongass National Forest from scores of new areas 
ranging in size from a few acres to several thousands of acres and 
create numerous land use conflicts with local communities and other 
forest stakeholders.
    All aboriginal Alaska Native land claims were settled under ANCSA, 
historic legislation that required a complicated balancing of private 
and public interests. H.R. 1408 would bypass ANCSA for the benefit of a 
single, private for-profit business, the Sealaska Corporation. H.R. 
1408 would provide the Sealaska Corporation a unique ability to obtain 
dozens of large and small parcels of high-value public lands 
strategically sited throughout the Tongass National Forest in Southeast 
Alaska.
        <bullet>  Sealaska has targeted some of the most biologically 
        productive public lands in the Tongass for logging and other 
        kinds of development, including some inventoried roadless 
        areas. Lands that Sealaska Corporation seeks to obtain includes 
        areas that are heavily used and highly valued as public lands 
        by southeast Alaska residents, commercial fishermen, local 
        outfitters/guides, and visitors to Alaska's Inside Passage.
        <bullet>  No further Congressional action is needed for 
        Sealaska to obtain its land entitlement. In fact, Sealaska 
        Corporation has already made its final land entitlement 
        selections of approximately 65,000 acres with the BLM. Sealaska 
        Corporation is itself responsible for the delay in acquisition 
        of its remaining entitlement as it has asked the BLM to hold 
        off on conveyance of its remaining land selections while it 
        seeks to get more valuable lands by lobbying Congress.
        <bullet>  Sealaska has previously received a significant claims 
        settlement. Sealaska received a substantial settlement under 
        ANCSA, including more than $90 million and approximately 
        354,000 acres of land to be selected in ``compact'' and 
        ``contiguous'' tracts within the vicinity of nine Native 
        villages in Southeast Alaska. Sealaska's past selections have 
        included large tracts of valuable old growth timber that have 
        since been harvested.
        <bullet>  Sealaska supported designation of the land selection 
        areas that it now seeks to modify. Sealaska Corporation 
        supported legislation that established the selection areas that 
        the corporation is now seeking to modify. As reported by Alaska 
        Congressman Don Young, the selection areas established in 1976 
        ``embodies a compromise negotiated and supported by Sealaska, 
        the State of Alaska, Native villages in the region and various 
        environmental groups.'' (Congressional Record, Dec. 16, 1975) 
        The land selection rights Sealaska Corporation now seeks to 
        change are exactly what the corporation requested previously. 
        Sealaska now wants to override ANCSA so the corporation can 
        select more valuable lands in a combination of large and small 
        parcels scattered across the Tongass National Forest.
        <bullet>  H.R. 1408 would establish a new precedent for the 
        privatization of public lands. As proposed, the legislation 
        could predictably result in additional small parcel claims on 
        public lands being proposed throughout Alaska by other Alaska 
        Native Corporations.
        <bullet>  The lands that Sealaska has proposed to obtain are 
        substantially more valuable than the lands it is entitled to 
        under current law. The proposed acquisition is not based on a 
        value-for-value exchange of the lands currently selected by 
        Sealaska Corporation. The lands that Sealaska Corporation now 
        seeks are disproportionately valuable relative to the forest 
        overall including old growth timber values that are 
        substantially greater than the forest average.
    In conclusion, H.R. 1408 would severely impact the national 
interest in the balanced management and conservation of public 
resources within the Tongass National Forest and should not be enacted.

Sincerely,

Mike Daulton
Vice President of Government Relations
National Audubon Society
                                 ______
                                 
    [A resolution submitted for the record by Elfin Cove, 
Alaska, follows:]

              Sealaska Lands Bills S. S730 and H.R. 1408 
                          Resolution No. 11-02

Whereas: The residents of Elfin Cove have a long tradition of use of 
Point Lavinia and the Inian Peninsula East for subsistence gathering, 
hunting and fishing, and;

Whereas: Elfin Cove is completely surrounded by the Tongass National 
Forest, community members have utilized these areas for tourism 
enterprise, recreation and solitude experiences, and;

Whereas: Point Lavinia and the Inian Peninsula East are part of a 
contiguous wilderness area that is in immediate proximity to Elfin 
Cove, and;

Whereas: Elfin Cove residents have established a protective stewardship 
over the aforementioned areas, and

Whereas: These areas contain rare and endangered species of flora and 
fauna,

Be It Resolved: That the membership of the Community of Elfin Cove Non-
Profit Corporation is against the Sealaska Lands Bill lands selection 
of Point Lavinia and the Inian Peninsula East as Native Futures Sites 
slated for tourism and recreation enterprise development.

Witness:

Dennis Meier--Chairman, CECNPC

Attest:

Janfe Button--Secretary, CECNPC

Date: 6/3/2011

Vote at CECNPC meeting: 5 in favor, 1 abstain
                                 ______
                                 

    [Letters submitted for the record by the Organized Village 
of Kake, Alaska, follow:]
[GRAPHIC] [TIFF OMITTED] 66652.008

.eps[GRAPHIC] [TIFF OMITTED] 66652.009

.eps[GRAPHIC] [TIFF OMITTED] 66652.010

.eps[GRAPHIC] [TIFF OMITTED] 66652.011

.eps[GRAPHIC] [TIFF OMITTED] 66652.012

.eps                                ------                                



            Statement submitted for the record by Alan Stein

    My name is Alan Stein. Over 40 years ago as a young man, I looked 
through a seaplane window at Prince of Wales Island where today 
Sealaska has stirred up great controversy by having Representative 
Young introduce H.R. 1408.
    It was April, 1971 when I landed in Port Protection only to learn 
Native Alaskans had blocked all public land transfers in the State of 
Alaska pending a final settlement in the Alaska Native Claims 
Settlement Act ANCSA (December, 1971).
    The US Forest Service told me I could not obtain title to the land 
I homesteaded until the Natives settled their claims.
    While building a cabin with a chain saw and hammer, I became the 
President of the Point Baker Association formed to protect Northern 
Prince of Wales Island. Our lawsuit resulted in the National Forest 
Management Act (1976). I came before this committee in March of that 
year to present oral testimony and I represented the United Fishermen 
of Alaska and PBA.
    I worked as a commercial logger at Dean Hiner's floating log camp 
near Calder Bay and appreciate the bone weary work men of the woods do. 
Dean and 50 other small outfits sued the two Pulp Companies for anti 
trust violations that put them out of business and won in federal 
court. But not before they were driven out of business.
    I owned and operated many commercial fishing vessels during my 25 
years in Alaska. I will always consider Alaska my true home.
    In 1989, I organized a coalition of Alaskan Natives, commercial 
fishermen, canneries, and others into the Salmon Bay Protective 
Association (SBPA). I was elected the Director. About 1,000 commercial 
fishermen joined our organization. Republican cannery owners from Alec 
Brindle's Ward Cove and Bob Thorstenson's Icicle Seafoods to Democratic 
owners such as Terry Gardiner of Norquest Seafoods made substantial 
contributions. The United Fishermen of Alaska supported our efforts. As 
did the major fishing organizations in SE Alaska.
    Our law suit, Stein v Barton (1990) did two things.
        <bullet>  First, it led to Congressional recognition and 
        permanent protection of some of the habitat Alaskan Natives and 
        others used to hunt and fish on some federal land on Prince of 
        Wales Island.
        <bullet>  Second it won the first national permanent 
        protections of salmon streams during logging; the injunction 
        put into place was used as a model when Congress made 100 foot 
        no cut buffer strips permanent protection provisions in the 
        Tongass Timber Reform Act (1990).
Sealaska Never Acted to Protect Subsistence Habitat on Federal Land
Spiritual Connection Argument Weakened by its 40 year Inaction
    Sealaska's arguments of dispossession from their lands by a 
colonial power would be laughable historically were the earnestness of 
the claim not so great.
    The Wrangell Natives in the SBPA included some whose relatives had 
been the subjects of the Tee Hit Ton decision. 348 U.S. 272 (1955). 
Byron Mallot attaches a report by Walter Echo Hawk claiming this 
Supreme Court case is '' one of the worst decisions handed down.'' P4 
Echo Hawk.
    In Echo Hawk's view, the US Forest Service was a colonial power 
over the SE Alaska Natives and Tee Hit Ton is the ``Law of 
Colonialism.'' Echo Hawk p 7
    Mallot's reliance on Echo Hawk--who invokes ideology steeped in 
``genocide,'' ``marginalization,'' ``colonization,'' ``post 
colonization,'' ``subjugation, dispossession, and exploitation'' to 
urge a new Congressional policy toward the Tlingit and Haida ``in their 
indigenous aboriginal habitats'' (Echo Hawk p1-2)--strikes me as sheer 
nonsense in light of the rest of the story on Salmon Bay.
    Eddie Churchill, an Alaskan Native of blessed memory, who was the 
head of the Wrangell Cooperative Association, sat on SBPA's board of 
directors. I fought long and hard to make sure that he and his tribe 
(as well as everyone else) could continue to hunt and fish in Salmon 
Bay by protecting its fish and wildlife. Congress agreed with us when 
they designated Salmon Bay a LUD II protecting it for all users, so 
long as it remains in US Forest Service hands.
Sealaska AWOL when it came to protecting indigenous native habitat at 
        Salmon Bay in 1990--undercuts their argument they consider all 
        wildlife sacred
    Although I knew many of the members of the Board of Directors of 
Sealaska Corporation at the time, never did any of them express a 
desire to assist the Natives of Wrangell to preserve the land around 
Salmon Bay Lake. Never did Byron Mallot or Al Kookesh ask to intervene 
in this case on the behalf of Native subsistence users.
    If Byron really believes Echo Hawk's ``statement that monetary 
compensation does not protect a way of life (hunting, fishing),'' p 8, 
then where was Byron and Sealaska when I was fighting to save that way 
of life?
    The absence of the Sealaska Board of Directors from the SBPA case 
reinforced something that I heard from the Chief of the Chilkoot 
Tlingit, Austin Hammond of blessed memory. ``There are those of us who 
want to honor the land and take only what we need,'' he told me while 
standing in front of his house on the shore of Lynn Canal.
        ``Some of the young men in Sealaska only see money in the 
        trees. Remember what I tell you.''
    If Austin were here today, I am sure he would disapprove of 
Sealaska's bill H.R. 1408 to destroy the fishing and hunting grounds of 
other tribes, other towns of men who grew up outside. Austin would get 
Byron and Al to sit on the peace rock along the Chilkoot River and 
talk, before they could get up, with all the leaders of the towns whose 
lives they want to upset with this bill. Austin would tell them Echo 
Hawk is sheer bull, a policy whose foundations falter on false 
historical and legal interpretation.

  SEALASKA SEEKS EXPANSIONS FAR BEYOND THE SCOPE OF ANCSA, ANILCA and 
                      other Congressional Statutes

New land categories are unfair, unjust, and break previous settlements 
                       hammered out over decades.

H.R. 1408 must be seen in the context of the substantial benefits 
        Sealaska has won from Congress over the last 40 years.
    Since the 1960s, Sealaska has obtained multiple settlements of its 
lands claims, all of which constitute what was fair and just. It has 
also benefited from other special interest Native bills in Congress.
    H.R. 1408 goes far beyond anything contemplated in ANCSA or 
subsequent settlements.
        <bullet>  A cash settlement of over seven million dollars in 
        the late sixties compensated Natives for lands they occupied or 
        used that had been placed into the Tongass National Forest. 
        This was a final settlement, but a few years latter, Natives 
        sought more compensation.
        <bullet>  ANCSA gave Natives a total of 656,400 acres or 
        1,025.62 square miles. All but 65,000 acres or 100 square miles 
        have been transferred. Sealaska also got a fair share of one 
        billion 1971 dollars in cash. This land is among the most 
        valuable timberland in the United States.
                <all>  Villages got 286,400 acres or 447.5 square miles
                <all>  Sealaska got 370,000 acres or 578 square miles. 
                Source: 2007 Annual Report Sealaska.
        <bullet>  Natives then sought Subsistence rights to hunt and 
        fish on all federal land as a priority over all other users, 
        arguing that their spiritual needs were not met by ANCSA.
        <bullet>  In 1980, Congress in TITLE 8 of the Alaska National 
        Interest Lands Act. gave Alaska Natives the preferential 
        subsistence hunting and fishing rights they sought. This 
        exclusive priority to hunt and fish was a huge additional 
        benefit that Natives had not won in ANCSA.
        <bullet>  Congress created huge tax benefits to Sealaska when 
        it allowed it to sell net operating losses (the value of the 
        timber in 1971 minus the value at a low point in the market, 
        such that ``Sealaska has not paid State or Federal taxes'') and 
        may not pay taxes on profits long into the future. See Sealaska 
        Annual Report 2010 page 54
        <bullet>  Sealaska shareholders get free medical care from 
        birth to grave even though the United States never subdued or 
        conquered Alaska Natives.
        <bullet>  Finally, Sealaska and other Alaska Native 
        Corporations under the 8 (a) provision of a federal law were 
        given a huge benefit worth in excess of 25 billion dollars over 
        the last ten years. Alaska Native Corporations do not have to 
        compete with other corporations for federal contracting. They 
        have exclusive bidding rights. See last year's Washington Post 
        article for abuses under this scheme that Congress failed by 
        one vote to remedy this year. SEE http://
        www.washingtonpost.com/wp-dyn/content/article/2010/10/07/
        AR2010100
        707217.html
                <all>  http://www.govexec.com/dailyfed/0309/
                030609rb1.htm
                <all>  http://voices.washingtonpost.com/federal-eye/
                2009/07/
                   lawmakers_cast_a_critical_eye.html
    Despite these and other land, cash, tax, health benefits, and 
hunting and fishing exclusive rights that taxpayers have given the 
Tlingit and Haida to make them whole, the rationale in Byron Mallot's 
testimony, in Sealaska 2010 Annual Report and in H.R. 1408 is that the 
injustice of conquest was so great that only greater and more valuable 
tax payer assets given to Sealaska's corporate leaders will bring peace 
to the soul of America's conscience.
    Besides resting on false assumptions, the Sealaska approach raises 
troubling issues.
    When is final final?
    When is enough enough?
    Where will the 40 year history of hand outs end?
    Will it be when all public lands in Alaska are tied up, access 
blocked by Alaska Native Corporations, forever breaking the historical 
compromises hammered out in 1971, 1975, 1980, and subsequent years? It 
seems to me ANSCA was supposed to put Alaska Natives on their feet, not 
establish an elite class of corporate officers who make high salaries 
while shareholders get bupkees. This despite the trusts set aside for 
elders and students filled not so much by timber money as 8(a) profits.
    At some point Congress must put its foot down and tell Sealaska 
they should spend their time figuring out how to make money rather than 
take money from taxpayers.
    I find this approach not only hypocritical but historically 
inaccurate in that legal precedent and demographic movements have been 
jammed into an ideological prism so out of wack with reality that the 
goal of justice is distorted beyond recognition.
    Specifically the Enterprise or Future Sites have extraordinary 
value both in dollars and use. The Icy Straights site should be either 
leased to a private corporation based on the projected revenue of power 
generated from what is likely to be worth more than all the Columbia 
River Dams or developed by a public power authority. Sealaska should be 
allowed no Future or Enterprise sites. Enough is enough with taxpayer 
give aways above and way beyond what justice requires.
    Cultural or Sacred sites such as cemeteries are adequately 
protected under Federal Law as administered by the US Forest Service. 
This to is nothing but a scam against taxpayers seeking to lock up land 
now used by many for benefit of a few. The location of gravesites is so 
closely held that the wilderness itself protects them.
    I specifically object to what I have heard from one of Sealaska 
lobbyists who has told me that SE Alaska Natives were disposed of the 
entire Tongass. This is contemporary myth making on a grand scale and 
is false.
    No future or sacred sites need to be added to sweeten the deal.
History and archeology belie Sealaska claims
    Over the ten thousand years of the archeological record of SE 
Alaska that I have studied, several cultures have occupied the roughly 
350 mile long coastline.
        <bullet>  The 9,200-year-old man found in a cave near Port 
        Protection has not been shown to be genetically akin to modern 
        Tlingit or Haida. Yet Tlingits claimed and obtained the remains 
        as one of their own.
        <bullet>  A cultural shift occurred around five thousand years 
        ago per the research at Tebenkoff Bay by the University of 
        California Santa Barbara archeologists who found a transition 
        from back bay fish based economies to front bay deer hunting 
        and war like cultures at this period before Abraham left 
        Bagdad.
        <bullet>  Nevertheless, Tlingit occupation may or may not date 
        from five thousand years ago when they migrated out of Japan or 
        Korea and merged with previous cultures. If Tlingits assert 
        their occupation was from time immemorial, they draw on myth, 
        not the archeological record.
        <bullet>  Haida migrations out of the Queen Charlotte Islands, 
        which displaced Tlingit villages northward on Prince of Wales, 
        did not occur until just before first contact around 1774.
    While Tlingits may argue they occupied the entire Tongass National 
Forest, the archeological truth is that there was very restricted land 
settlement and occupation in winter villages in major bays with a 
population estimated before the small pox epidemic of the early 1830s 
at less than 10,000. First Coast Survey. Warfare was common and 
villages provided protection. Hence small land areas were occupied.
    By the time of transfer to the United States, the population was 
estimated to have shrunk by half. Id.
    The distribution of population continued to be concentrated 
geographically to winter villages with smaller groups shifting over 
time during the summer to sockeye stream to sockeye stream with a 
pattern of depletion and movement prominent. So that in any one decade, 
use of the land was limited to shorelines at productive salmon creeks. 
Of the 2500 salmon creeks in SE Alaska, very small percentages were 
ever used during any decade. And never continuously. The Tlingit and 
other prehistoric residents occupied a very small part of the Tongass 
at any one time.
    The scope of historical occupation is highly relevant to the issue 
of land ownership.
    Per the Organic Act of 1884, use and possession of land was 
required to establish ownership. Given the transitory use of a limited 
amount of land, the more than 1000 square miles Sealaska has/will have 
received alone is just reflection of the scope of the land used and 
occupied in any one decade prior to 1867. At the turn of the 19th 
century, the scope of town land area shrank even further as detailed in 
further discussion.
    I have studied the historical record extensively from the time of 
first contact through the early 20th century and can find no record of 
forcible ejection of Haida or Prince of Wales Tlingit from their lands 
on any where near a systematic or extensive basis. (I was trained in 
the graduate school of history at the University of Wisconsin, Madison. 
I have published on the subject matter of Prince of Wales Archeology.)
    So, a far different dynamic than the simplistic charge of Echo 
Hawk's colonialism was at work
    Abandonment of traditional villages by 1907 or earlier was the rule 
and practice on the Prince of Wales Archipelago. Thus the migration 
from the Kaigani Haida in Klinkwan, Sukwan, Koinglass, and the smaller 
settlements south of Sukwan Island had been completed or were well 
underway by 1907. Howkan had a post office and missionary provided 
school teacher from about 1883. It inhabitants moved to Hydaburg, 
Craig, Ketchikan, and other places after the turn of the century. The 
abandonment occurred in response to opportunity--opportunity to make 
money in the salteries and new canneries on the West Coast of Prince of 
Wales; opportunity to get a better education; opportunity to be near 
medical care.
    A similar dynamic occurred for the village of Tukexan and Kareen, 
Old Kassan, and the village near Cape Fox, which was abandoned when the 
Harriman Expedition arrived with John Muir aboard at the fin de siecle.
    It is offensive to the historical record to overlay Echo Hawk's 
rigid ideological colonialism explanation for the movement of the 
Tlingit and Haida from their outlying villages in the late 19th century 
to the towns they occupy to this day. The people who moved to Craig and 
Hydaberg and Klawock did so to learn, work, and embrace Christianity.
    As for the land ethic portrayed by Sealaska of respecting all 
living things, we should not forget that between the first Boston men 
who arrived in the 1780s and 1820, a vast herd of sea otter were hunted 
nearly to extinction by Alaska Natives on Prince of Wales who wanted 
rifles, blankets, and other trade goods. While the Russians did enslave 
the Aleuts who they brought to finish off the sea otters after 1802, 
the Haida and Tlingit on Prince of Wales were able to bring the 
population of sea otter to near extinction by reason of zeal for modern 
trade goods alone.
Northern Sealaska Board Members and logging in Southern tribes' 
        backyard, most of it in ancient Haida territory
        <bullet>  Almost all the commercial selections in S. 730 are on 
        the southern Tongass where most of the heavy logging occurred 
        in the past.
        <bullet>  Yakutat's Byron would rather concentrate logging onto 
        Prince of Wales Island Archipelago than allow any around his 
        home village at Yakutat and made sure Congress made the 100 
        square mile ANCSA lands at Yakutat off-limits.
        <bullet>  Angoon's Al Kookesh made sure logging for his town 
        occurred also in the south square in ancient Haida territory.
        <bullet>  Kluckwan on the Chilkaat was all too willing to 
        select lands for logging off the West Coast of Prince of Wales 
        in Haida territory. The combined affect of these changes to 
        ANCSA which moved the selections away from their villages boxes 
        designated in 1975 amendments and concentrated them onto the 
        Prince of Wales Archipelago made sure the hunting and fishing 
        of their fellow Haida and Southern Tlingit were put into 
        jeopardy. This is a second example of hypocrisy on the part of 
        Sealaska.
    It is hard for me to fathom why the Tlingit would want to force 
almost all the logging onto former Haida territory. Perhaps some 
ancient grievance is at the bottom of it.
    I am all for a settlement of Sealaska's claims in the areas it 
selected in 2008 when it made submissions to the BLM which are inside 
the boxes established in 1975 by request to Congress of Sealaska's 
President.
    Congress should walk away from H.R. 1408 and encourage Sealaska to 
live up to the capitalistic goals which Byron Mallot helped create when 
he worked as an aide to Ted Stevens forty years ago.
                                 ______
                                 
    [A letter submitted for the record by Andrew Thoms, 
Executive Director, Sitka Conservation Society, follows:]

                       Sitka Conservation Society

                                Box 6533

                          Sitka, Alaska 99835

                             (907) 747-7509

                           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1871767e77586b716c73796f71747c36776a7f">[email&#160;protected]</a>

                           www.sitkawild.org

                              June 6, 2011

Dear Members of the House Subcommittee on Indian and Alaska Native 
Affairs:

    Southeast Alaska is an awe-inspiring place of glaciers, fiords, and 
towering spruce trees. For all of its natural beauty, however, one of 
the region's most remarkable characteristics is that its land is held 
almost entirely in public hands as the Tongass National Forest. The 
public not only has free access to the land, but the public has a say 
in how the land should be developed while the Forest Service seeks to 
find the best balance for all users and most significant social/
economic impact. The Sitka Conservation Society has over 1000 local 
members who are all part of our organization because they value the 
lands and waters of the Tongass. Our membership includes native and 
non-native Alaskans and also includes shareholders of Sealaska and 
other Native Corporations.
    Our membership is extremely concerned about the the Sealaska Lands 
Bill (S.703 and H.R. 1408). We are scared of this legislation because, 
if passed, some of the most important and beloved places in Southeast 
Alaska will be taken from public hands and placed in those of a private 
corporation. The public will need special permission to access the 
land, and the public will have no power to determine whether and how 
the land should be developed. For these reasons, we oppose the Bill and 
request that you do as well.
    The Tongass National Forest is enormous, but its richest natural 
resources are concentrated in a small handful of places, many of which 
have been identified as Sealaska selections. Most of the acreage in the 
Sealaska Bill is timber land. A transfer to Sealaska would mean the 
loss of some of the largest and oldest trees in Southeast Alaska as 
well as crucial habitat, with only a shortterm financial benefit to a 
limited number of people. It would also mean a loss of millions of 
dollars of tax-payer investment in Forest Service infrastructure that 
would be transferred to Sealaska Corporation. This infrastructure would 
include roads, bridges, landings, and more. Taxpayer investments in 
this land also has included timber stand management such as thinning 
and pruning that significantly increases the value of many of the acres 
that Sealaska has selected, and makes these acres critical for future 
Forest Service land management plan actions. The land that Sealaska is 
selecting in the bill is much more valuable than that in the original 
agreement made under ANCSA. If Sealaska is allowed to select outside of 
the originally agreed upon boxes, we would demand that it be a value-
for-value trade rather than an acre-for-acre trade.
    While we are alarmed by Sealaska's timber selections, our largest 
concern lies in the 3,600 acres of unidentified cultural sites. Under 
the Bill, practically anything can qualify as a cultural site, 
regardless of whether there is evidence of human habitation at the 
site. Sealaska has yet to make its cultural site selections, but, based 
on its previous ANCSA selections, popular subsistence salmon streams 
appear particularly vulnerable. Sealaska selected Redoubt Falls, the 
nearest subsistence stream to Sitka, as a cultural site under ANCSA, 
despite no archeological evidence that the site had been historically 
used by Native people. There are a few other subsistence streams within 
a couple hours of town, which hundreds of Sitka families depend on to 
fill their freezers each year. All of these streams would qualify as 
cultural sites. We consider the selection at Redoubt to foreshadow the 
conflicts that will occur over the next 10 years as Sealaska 
strategically selects small parcels of critically important social/
economic/environment acres across the Tongass.
    . Once in private hands, cultural sites would have no federal 
protections, such as the Native America Graves Protection and 
Repatriation Act. This means Sealaska, which has a horrific land 
management record, would be left to care for its newly acquired lands 
with practically no oversight. Sealaska has not made it public among 
tribes, clans, historical associations, and local governments that once 
in their hands, important sacred and cultural sites will lose their 
NAGPRA protections. We find it cynical that Sealaska is selling a story 
of these sites being better protected in their hands than with the 
already strict protections under NAGPRA as well as the taxpayer 
investment and protection afforded by multiple federal agencies who 
currently oversee these sites in collaborative agreements with local 
tribes and clans.
    We request that the 3600 acres granted to Sealaska to choose 
throughout the Tongass be removed from the legislation and that 
Sealaska work with local tribes and federal agencies to develop 
cooperative co-management agreements for the sites so that historically 
important acres remain a public resource and gain all the protections 
under NAGRPA, the Antiquities Act, and other federal agency management 
protections.
    Finally, we are alarmed that Sealaska has not divulged to local 
constituencies that the privatization of public lands would result in 
the lands no longer offering the subsistence opportunities and 
regulations that are provided to Southeast Alaska residents on public 
lands. In many cases, the lands that Sealaska is selecting are 
important for subsistence uses for local Native and non-Native 
citizens. With these lands in private hands, the subsistence 
regulations would change from federal land to state/private lands. This 
would mean that extended seasons and bag-limits would not apply to 
these lands which would further shut off subsistence access.
    Overall, we are extremely disappointed in the way that the Sealaska 
Corporation and its representatives have organized support for this 
legislation. The most glaring case has been when Albert Kookesh, a 
Sealaska Board Member who is also a sitting Alaska State Senator, made 
an assertion to the Craig City Assembly in an official meeting that 
they would not receive state funding for their needed projects if they 
didn't support the Sealaska legislation. That Sealaska Board Member/
Senator was subsequently found in violation of state ethics policies. 
This blazon threat was made in full public display in a City Assembly 
forum. We have heard worse from local citizens of threats made for not 
supporting the legislation behind closed doors. Locally, we have heard 
Sealaska board members use race-based arguments to raise support for 
the legislation when challenged with non-racial access and land-value 
issues. It has gone so far as to make people feel that they can't 
oppose the legislation based on its merits for fear that they will then 
be branded a ``racist'' in the region. This dynamic is causing great 
chagrin in a region that has worked to overcome a history of racial 
conflict. If this legislation is causing so much divisive conflict, and 
if the methods of building support are so divisive, we feel that there 
is obviously a problem with the legislation. If the legislation was a 
good thing for the region, it would not be causing so much controversy.
    The Sealaska Lands Bill already has been divisive in Sitka and 
other communities, but we may be seeing only the start. If the Bill 
passes and Sealaska follows through with the land management practices 
it has used in the past, communities will suffer far more than they 
will gain. We want what is best for our community and the awe-inspiring 
place that we live. The best thing for us would be that this Bill is 
voted down and sent back to the drawing board.
    On behalf of the membership of the Sitka Conservation Society, we 
would thank you for your consideration of our concerns.

                               Sincerely,

                              Andrew Thoms

                           Executive Director

                       Sitka Conservation Society

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
